<html>
<title> - TO REVIEW BIOSECURITY PREPAREDNESS AND EFFORTS TO ADDRESS AGROTERRORISM THREATS</title>
<body><pre>[Senate Hearing 109-457]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-457
 
TO REVIEW BIOSECURITY PREPAREDNESS AND EFFORTS TO ADDRESS AGROTERRORISM 
                                THREATS

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION


                               __________

                             JULY 20, 2005

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
22-648                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                   SAXBY CHAMBLISS, Georgia, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
JAMES M. TALENT, Missouri            BLANCHE L. LINCOLN, Arkansas
CRAIG THOMAS, Wyoming                DEBBIE A. STABENOW, Michigan
RICK SANTORUM, Pennsylvania          E. BENJAMIN NELSON, Nebraska
NORM COLEMAN, Minnesota              MARK DAYTON, Minnesota
MICHEAL D. CRAPO, Idaho              KEN SALAZAR, Colorado
CHARLES E. GRASSLEY, Iowa

            Martha Scott Poindexter, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

              Steven Meeks, Majority Legislative Director

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Review Biosecurity Preparedness and Efforts to Address 
  Agroterrorism Threats..........................................    01

                              ----------                              

                        Wednesday July 20, 2005
                    STATEMENTS PRESENTED BY SENATORS

Chambliss, Hon. Saxby, a U.S. Senator from Georgia, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Roberts, Hon. Pat, a U.S. Senator from Kansas....................    03
Salazar, Hon. Ken, a U.S. Senator from Colorado..................    23
                              ----------                              

                               WITNESSES
                                Panel I

Conner, Hon. Charles, Deputy Secretary, U.S. Department of 
  Agriculture, Washington, DC....................................    05
Brackett, Robert, Ph.D., Director, Center for Food Safety and 
  Applied Nutrition Food & Drug Administration, Rockville, MD....    10
Lewis, John E., Deputy Assistant Director, Counterterrorism 
  Division Federal Bureau of Investigation, Washington, DC.......    08
McCarthy, Maureen, Ph.D., Director, Office of Research and 
  Development Department of Homeland Security, Washington, DC....    06

                                Panel II

Cheviron, Mark J., Corporate Vice President and Director of 
  Corporate Security and Services Archers Daniels Midlane 
  Company, Decatur, IL...........................................    35
Lane, James, Ford County Undersheriff, Dodge City, Kansas........    39
Roth, James A., DVM, Ph.D., Director, The Center for Food 
  Security and Public Health Iowa State University, Ames, Iowa...    31
Sherwood, James, Ph.D., Head, Department of Plant Pathology 
  University of Georgia, Athens, Georgia.........................    29
                              ----------                              

                                APPENDIX

Prepared Statements:
    Conner, Hon. Charles.........................................    44
    Salazar, Hon. Ken............................................    93
    Brackett, Robert, Ph.D.......................................    71
    Cheviron, Mark J.............................................   114
    Lane, James..................................................   105
    Lewis, John E................................................    67
    McCarthy, Maureen, Ph.D......................................    58
    Roth, James A................................................   101
    Sherwood, James, Ph.D........................................    96
Document(s) Submitted for the Record:
    Harkin, Hon. Tom.............................................   118
    Cochran, Hon. Thad...........................................   119
    Statement of Mary Upchurch Kruger, Director, Office of 
      Homeland Security Office of the Administrator..............   121
    Statement of Edwin Quattlebaum, Ph.D., Chairman, President, 
      and Chief Executive Officer MetaMorphix, Inc...............   126
Questions and Answers Submitted for the Record:
    Chambliss, Hon. Saxby........................................   134
    Harkin, Hon. Tom.............................................   137
    Cochran, Hon. Thad...........................................   148
    Grassley, Hon. Charles.......................................   150
    McConnell, Hon. Mitch........................................   153
    Roberts, Hon. Pat............................................   154
    Salazar, Hon. Ken............................................   161



TO REVIEW BIOSECURITY PREPAREDNESS AND EFFORTS TO ADDRESS AGROTERRORISM 
                                THREATS

                              ----------                              


                        WEDNESDAY, JULY 20, 2005

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SR-328a, Russell Senate Office Building, Hon. Saxby 
Chambliss, chairman of the committee, presiding.
    Present or submitting a statement: Senators Chambliss, 
Roberts, Thomas, Dayton, Cochran, and Salazar.

STATEMENT OF HON. SAXBY CHAMBLISS, A U.S. SENATOR FROM GEORGIA, 
  CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    The Chairman. Good morning. I welcome you this morning to 
this hearing to review the efforts by public and private 
entities to increase biosecurity and agroterrorism 
preparedness. I appreciate our witnesses and members of the 
public being here to review this very important topic as well 
as those who are listening through our web site. Agriculture is 
a significant sector within the U.S. economy, accounting for 13 
percent of the U.S. gross domestic product and 18 percent of 
domestic employment. A deliberate attack on the U.S. food 
supply and agriculture operations would cause severe economic 
loss from farm to plate.
    As we have seen with naturally occurring plant and animal 
disease, these losses could be particularly severe where States 
where animal and crop production is connected and largely 
responsible for the majority of economic activity. For example, 
three states, Arkansas, Alabama, and my home State of Georgia 
account for 31 percent of the chickens produced in the United 
States. North Carolina, Iowa, and Minnesota account for 53 
percent of hog production; and five others, Nebraska, Missouri, 
Oklahoma, Texas, and California produce 35 percent of the 
cattle. Four States, Illinois, Iowa, Nebraska, and Minnesota 
produce 54 percent of the corn; and three of those, Illinois, 
Iowa and Minnesota, produce 39 percent of all soybeans.
    Current Federal efforts to prevent and respond to a 
terrorist attack are governed by two main Presidential 
directives. We will hear testimony from representatives of the 
Department of Agriculture, Department of Homeland Security, and 
the Food and Drug Administration outlining existing efforts and 
capabilities and what we must do to deter, detect, and respond 
effectively to an attack. I am particularly interested in 
hearing a status report on the implementation of Homeland 
Security Presidential Directives 7 and 9 and what, if any, 
additional authorities are necessary to prevent and deter a 
terrorist attack on the food supply.
    While the Homeland Security Act of 2002 and the 
Bioterrorism Act of 2002 increased biosecurity efforts, it is 
clear that more needs to be done. This hearing will serve as a 
useful dialog as this committee works with Senators Burr and 
Enzi and members of the Health Committee in drafting follow-up 
legislation to the Project Bioshield Act passed and signed by 
the President last year.
    And while we are talking about that, I want to take a 
minute to commend the leadership of Senator Burr in this 
respect. He was a colleague and friend of my mine in the House. 
He was a leader during his House days, and now he has brought 
that same leadership and that knowledge and experience to the 
Senate and is providing real positive direction on this issue.
    As we will hear, the responsibility to counter an 
agroterrorist attack spans the various agencies with different 
regulatory functions; however, a new partner and often 
overlooked component in any response is the integration of 
national and local law enforcement agencies. A recent symposium 
on agroterrorism hosted by the Federal Bureau of Investigation 
highlighted the need for our nation to respond quickly and to 
ensure local producers and first responders are a part of any 
national response plan. I welcome our colleagues from the law 
enforcement community to the Agriculture Committee and look 
forward to your testimony.
    As anyone in agriculture knows, farmers, ranchers, 
extension agents, and many others are an integral part of 
detecting and responding to any disease outbreak, whether 
naturally occurring or deliberate. The second panel highlights 
this important partnership between public and private sectors, 
and we will hear what is being done to increase our 
preparedness at the local level in coordination with farmers 
and ranchers, the scientific community, and industry. No effort 
to prepare for an attack can be successful without a healthy 
and strong public-private partnership.
    This will be the third hearing in the Senate since 1999 
devoted to biosecurity and agroterrorism. My friend and 
colleague, Senator Roberts, who is with us this morning, held 
the first hearing in 1999. I think it is fair to say that he 
recognized early on the need to address the issue and, in his 
capacity as Chairman of the Senate Intelligence Committee, has 
continued to highlight the need for direction relative to this 
issue.
    The events of September 11, 2001, propelled the Government 
into action and forced the Federal agencies to re-think the 
threats facing agriculture and the need to take steps to 
prevent agroterrorist attacks. Later, Senator Talent, also a 
member of this committee, highlighted the importance of the 
topic at a hearing before the Homeland Security and Government 
Affairs Committee chaired by Senator Collins almost 2 years 
ago. I look forward to working with members of this committee 
to make sure that this aspect of homeland security receives the 
attention and the resources it deserves. To do otherwise would 
place a critical sector of the economy at risk.
    Before we proceed, I would like to request unanimous 
consent to insert testimony submitted by the Environmental 
Protection Agency for the record, and without objection, that 
will be done.
    [The EPA statement follows:]
    The Chairman. I would ask my colleagues, Senator Thomas, 
Senator Roberts, if you would like to make any opening 
statement at this point.
    Senator Thomas. Mr. Chairman, I thank you for having this. 
This is an important issue. I have no statement. I am anxious 
to hear the testimony.
    The Chairman. Senator Roberts.
    Senator Roberts. Mr. Chairman, thank you. I also would like 
to hear from the witnesses, but I do have an opening statement.

   STATEMENT OF HON. PAT ROBERTS, A U.S. SENATOR FROM KANSAS

    Senator Roberts. Let me just say thank you for your very 
kind remarks and for holding this hearing. This is one of the 
most important issues that we face in agriculture, and it is 
true back in 1999, as Chairman of the Armed Services 
Subcommittee on Emerging Threats, we held it so important that 
it we held it in the Armed Services Committee. That was the 
first hearing on the topic, and at that time, our president of 
Kansas State University testified on the real need and urgency 
to really try to accelerate the research and response to 
efforts in this area. I argued at the time that this was a 
topic we couldn't ignore because it was simply too easy a 
target and would create absolute havoc and chaos in our food 
supply and our ag markets if it were to occur.
    You know, at first, quite a few people wanted to ignore the 
issue or at least they didn't want me to talk about the issue. 
I know on one visit to western Kansas, I had a farmer come up 
to me and say, Pat, you have got to quit talking about all this 
agroterrorism stuff; you are scaring the dickens out of people 
here and you are hurting the markets. Actually, he put it a 
little more colorfully than that, but I think you get the 
picture. That was the reaction I got until the tragic events of 
9-11. Obviously, we started to pay a lot more attention after 
that.
    We have since learned that several of the 9-11 hijackers 
had agriculture training. I think four of them--no six, and we 
know that they had an interest in crop dusters. It is my belief 
those crop dusters may have never been intended for people, but 
possibly could be used on agriculture. The threat is real. We 
know the former USSR had worked to try and simply weaponize 
many agriculture diseases, including foot and mouth disease and 
glanders and wheat rush, just to name a few. In many instances, 
these stockpiles still remain in loosely guarded facilities. 
That is what the non-limiter program is all about, and we don't 
know whose hands some of it may have ended up in.
    We traveled to Ordzhonikidze in Russia to take a look. That 
was one of the centers where if you looked at what they were 
making, it gave a real true picture, I think, of what President 
Ronald Reagan said in terms of the evil empire in terms of what 
they were making in terms of stockpiles. By the way, you didn't 
open up any refrigerator doors and take a good look or take a 
breath. Then they invited you for lunch, which made you think a 
little bit.
    I sit here today as Chairman of the Senate Intelligence 
Committee, and I can tell you that while we have no details of 
a specific threat against the food and agriculture sectors, as 
my colleague who sits in and is a valued member of that 
committee knows, but an attack is certainly possible, if not 
probable. It is so easy to do. In many instances, in the case 
of foot and mouth disease, it takes little, if any, scientific 
training. You just put a handkerchief under a diseased animal 
in Afghanistan, put it in a zip-lock bag, put it in your 
suitcase, come to the United States and drop it in any one of 
our feed lots, and we are in a lot of trouble.
    [Telephone interruption.]
    The Chairman. That is the Kansas State fight song, in case 
anybody missed that.
    Senator Roberts. Actually, I tried to put the Marine Corps 
hymn on there, but I haven't got it done yet. And my wife is 
not going to be pleased that I just cut her off. She is, in 
fact, the speaker of my house.
    I am pleased since 9-11 we have made major strides in this 
area. We have created new diagnostic networks. We have 
increased research. Most importantly, our intelligence agencies 
and also our relevant food and agriculture agencies are talking 
to each other and sharing information. We have come a long way.
    A terrorist attack on the ag sector, as you know, Mr. 
Chairman, need not be large in scale to have a devastating 
impact on our markets. Simply put, we cannot allow that to 
happen, and that is why I thank you again for holding this 
hearing today. So thank you and I look forward to the testimony 
of our witnesses.
    The Chairman. Thank you, Senator. We are now joined by 
Senator Dayton.
    Senator Dayton, do you have any opening comments you wish 
to make?
    Senator Dayton. I wish I could slim down the way this table 
did. Other than that, no, but you fooled me.
    The Chairman. Thank you. We are glad you are here.
    Our first panel this morning consists of the following 
individuals: The Honorable Charles Conner, Deputy Secretary of 
the United States Department of Agriculture.
    Chuck, I am glad we got you confirmed because you have been 
a busy guy and you have spent a lot of time over here with us, 
which we appreciate and we are glad to have your expertise and 
your knowledge here this morning.
    Maureen McCarthy, Director, Office of Research and 
Development from the Department of Homeland Security. Dr. 
McCarthy, welcome.
    Mr. John Lewis, Deputy Assistant Director, Counterterrorism 
Division of the Federal Bureau of Investigation. Mr. Lewis, 
welcome.
    Dr. Robert Brackett, Director, Center for Food Safety and 
Applied Nutrition from the Food and Drug Administration. Dr. 
Brackett, we certainly welcome you here this morning.
    We will certainly insert your full statement in the record, 
but we will turn to each of you now. We will start with Chuck 
and move down this way. Any opening comments you wish to make, 
we look forward to hearing from you.
    Chuck.

STATEMENT OF CHARLES CONNER, DEPUTY SECRETARY, U.S. DEPARTMENT 
                 OF AGRICULTURE, WASHINGTON, DC

    Mr. Conner. Mr. Chairman, thank you for this opportunity to 
be here today. I appreciate the invitation and the opportunity 
to represent the Department of Agriculture on this very timely 
hearing.
    Today, the committee raises an important issue, food and 
agricultural security. It is an issue that the U.S. Department 
of Agriculture considers essential to our mission. We seek to 
provide leadership on food, agriculture, natural resources, and 
related issues based on sound public policy, the best available 
science, and efficient management. In light of the recent 
global events and the growing focus on the security of our food 
and agricultural systems, we appreciate the opportunity to 
provide you with an update on USDA's homeland security-related 
efforts.
    I have summarized at your request, Mr. Chairman, my 
testimony to 5 minutes, but I would ask unanimous consent that 
my entire testimony be included in the record.
    The Chairman. Without objection.
    Mr. Conner. This year, agriculture exports, as you know, 
are projected to reach approximately $59 billion, thereby 
making 2005 the third largest export sales year in our history. 
Our nation's food system contributes almost $1.24 trillion or 
over 12 percent to our gross domestic product, and it employs 
approximately 17 to 18 percent of our entire workforce, as you 
have noted, Mr. Chairman. With such a large stake in our 
nation's economy, agriculture and the security of our 
agricultural sector is our No. 1 concern.
    As a department, we face many challenges in protecting this 
important infrastructure. The food and agriculture sector is 
particularly vulnerable to threats because agribusiness is not 
constrained by political boundaries and, as we all know, 
diseases and pathogens do not acknowledge State or national 
borders. The collective nature of the global food system is our 
strength, but it is also a disadvantage in the event of an 
attack or natural disease outbreak. Additionally, one of the 
agricultural sector's greatest contributions to the quality of 
life is the fact that our products flow quickly and easily via 
interstate commerce. Contaminated products, whether 
intentionally contaminated or unintentionally contaminated, 
could spread a pest, disease, or other agent very quickly and 
have a devastating effect on our economy.
    Since September 11, 2001, USDA has made great progress to 
focus and expand our mission to include security for the first 
time. What has not changed is our conviction that the threat to 
agriculture is very real. We believe that the department is 
playing a critical role in protecting the nation's food supply. 
Chairman Chambliss, our intention is to be proactive in 
maintaining a safe food supply and excellent detection 
mechanisms for animal and plant diseases and to be on the 
forefront of research and development to identify, contain, and 
eradicate animal and plant threats before they are able to have 
a major impact on our agricultural systems or our nation's 
economy.
    USDA remains committed to sustaining the strong 
relationships we have established with our partners on the 
Federal level as well as with the State and local governments. 
Our work with the Department of Homeland Security, the 
Department of Health and Human Services, and other agencies is 
absolutely paramount. Additionally, we have taken broad 
measures to educate producers, processors, and consumers on the 
importance of identifying and preventing security threats. We 
realize that protecting America's food supply is a momentous 
task, and that is why we value the opportunity to work in 
partnership with other agencies, governments, including this 
committee, suppliers and consumers on maintaining a secure food 
supply.
    My submitted testimony will also highlight the advances 
that the department is making to implement both Homeland 
Security Presidential Directive 7 as well as 9 from our focus 
on surveillance and monitoring diseases and outbreaks to 
response and recovery following an incident. USDA is thoroughly 
implementing the HSPD directives. We will continue to work 
closely with other agencies to ensure that we have the safest 
agriculture and food supply in the world.
    The Chairman. I thank you for holding, again, such a timely 
hearing, and after my colleagues' testimony, I would be happy 
to respond to questions the committee may have.
    [The prepared statement of Mr. Conner can be found in the 
appendix on page 44.]
    The Chairman. Thank you very much, Mr. Conner.
    Dr. McCarthy.

   STATEMENT OF MAUREEN McCARTHY, PH.D., DIRECTOR, OFFICE OF 
  RESEARCH AND DEVELOPMENT, DEPARTMENT OF HOMELAND SECURITY, 
                         WASHINGTON, DC

    Ms. McCarthy. Good morning, Chairman Chambliss, Senator 
Harkin, and distinguished members of the committee. I am very 
pleased to appear before you today to discuss the progress the 
Science and Technology Directorate of the Department of 
Homeland Security is making in close cooperation with our other 
agency partners to increase the Nation's ability to prevent, 
protect, against, and respond to acts of bioterrorism against 
our agriculture and food supply.
    Last week, Secretary Chertoff announced a six-point agenda 
to enhance the department's ability to manage risks, prioritize 
policy, share information, and conduct operations with a strong 
focus on preparedness. We must accomplish our mission with a 
continued sense of urgency. Our enemies constantly change and 
adapt. So we as a department must be nimble and decisive. We 
are adopting a risk management approach which integrates 
threats, vulnerabilities, and consequences to prioritize our 
actions and assess our performance.
    A major initiative of the department is the integration of 
activities that increase the Nation's preparedness against 
present and future threats. Protecting the Nation's agriculture 
and food supply is a critical element of these efforts. Our 
work must be guided by the understanding that effective 
security is built upon a network of systems that spans all 
levels of government and the private sector. DHS does not own 
or control all of these systems. We must set a clear national 
strategy and design an architecture in which separate roles and 
responsibilities for security are fully integrated amongst the 
public and private stakeholders.
    We must draw on the strength of our considerable network of 
assets, functioning as seamlessly as possible with other 
Federal agencies, State and local leadership, law enforcement, 
emergency management personnel, first responders, the private 
sector, our international partners, and the general public. 
Building effective partnerships must be at the core of every 
mission of the department.
    The Science and Technology Directorate is responsible for a 
broad range of agrodefense, research, development, test 
evaluation, and facility operations. These include accelerating 
the development of new veterinary countermeasures, establishing 
new university centers of excellence for agriculture and food 
security, and developing in close coordination with USDA a plan 
to provide facilities for farm animal disease and zoonotic 
defense, diagnostics, forensics, training, and countermeasure 
develop.
    The S and T Directorate in partnership with USDA has 
developed a joint strategy and program for farm animal disease 
defense with an initial focus and emphasis on the development 
of veterinary countermeasures for foot and mouth disease. 
Within this strategy, ARS from USDA leads the basic research 
and early development of diagnostics, vaccines and 
immunomodulators. Promising countermeasure candidates are then 
transferred to DHS for targeted advance development in 
cooperation with industry. The overall goal of this work is to 
expedite the transition of new validated diagnostic tools to 
the national animal health laboratory network and new vaccines 
and immunomodulators to the national veterinary stockpile.
    A significant achievement of our agricultural security 
preparedness program was the establishment of two new 
university homeland security centers of excellence. Through 
these homeland security centers and their extensive networks, 
we are engaging both the research and education capabilities of 
the Nation's academic community to protect our agricultural 
security and food infrastructure.
    The Plum Island Animal Disease Center is a unique and 
critical facility for the Nation's foreign animal disease 
defense. To facilitate overall coordination of the programs and 
operations of Plum Island, a board of directors has been 
established which is chaired by DHS and has the administrators 
of both ARS and APHIS as members. In 2004, Plum Island 
celebrates its fiftieth anniversary. The facility is now well 
beyond its originally planned life span and is in need of 
recapitalization. This year , we are conducting a conceptual 
design study for the next generation of a biological and agro 
facility. This process involving gathering requirements and 
developing options for the state-of-the-art facility that will 
support the Nation's critical mission to protect our 
agriculture infrastructure well into the twenty-first century. 
The study is being done in collaboration with USDA and HHS.
    The Secretary is committed to enhancing our preparedness 
and protecting the critical agriculture infrastructure. This is 
a high-priority mission for the department and one we conduct 
in strategic partnerships with our colleagues from USDA, other 
government agencies, and the private sector.
    This concludes my prepared statement, and with the 
committee's permission, I request my formal statement be 
submitted to the record. Mr. Chairman, and all the members of 
the committee, I thank you for the opportunity to appear before 
you and would be happy to take any of the questions you may 
have.
    [The prepared statement of Ms. McCarthy can be found in the 
appendix on page 58.]
    The Chairman. Thank you, Dr. McCarthy. Your statement will 
be put into the record.
    We now turn to Mr. Lewis.

    STATEMENT OF JOHN E. LEWIS, DEPUTY ASSISTANT DIRECTOR, 
  COUNTERTERRORISM DIVISION, FEDERAL BUREAU OF INVESTIGATION, 
                         WASHINGTON, DC

    Mr. Lewis. Good morning, Chairman Chambliss, Senators. 
Thank you for the invitation to come today and discuss with you 
this topic of agroterrorism.
    Since the tragedy of 9-11, the FBI has necessarily 
sharpened its focus on unconventional methods of future 
terrorist attacks, including a potential for some manner of 
terrorist event aimed at our food or ag sector, but mainly the 
previous and much publicized terrorist events including the 
Oklahoma City bombing, 9-11, Madrid, and now just recently 
London. We must make it our business not to let these series of 
events create for us something of a pattern that might preclude 
the type of proactive activity needed to prevent the next 
event.
    Most people do not equate terrorist attacks on people, 
public transportation, and buildings with attacks on plants and 
animals. We understand this threat to be real and we know the 
impact can be could be devastating. Our gathering here this 
morning is important. It sheds light on an area of our work 
that, frankly, is not all that often the leading topic around 
the terrorism discussion table.
    The absence of any direct attack on our food supply does 
not minimize the possibility that such an event could occur. We 
know from the body of intelligence collected to date that al 
Qaeda is aware of our agriculture industry along with other 
potential targets. To counter this particular terrorism threat, 
whether from an international or domestic terrorist, we are 
actively engaged and growing more so with our counterparts, not 
only across government, but across industry to share 
information, technology, and resources. Let me touch on some of 
these areas.
    One of the ways we are collaborating is through an entity 
known as the Agricultural Intelligence Working Group. Members 
of this group from across the U.S. intelligence community and 
beyond meet regularly to exchange information and ideas about 
food security and how best to maximize our combined skills, 
technology, and resources. The FBI is also a member of the 
National Bioforensic Analysis Center. This center is one of 
four components of the National Biodefense Analysis and 
Countermeasure Center. We are working with multiple Federal 
partners in the area of case attribution, that is identifying 
and exploiting any signatures or characteristics of a 
biological agent.
    The second group identified is a scientific working group 
on microbioforensics led by our laboratory division down in 
Quantico. It is engaged, again, with our Federal partners in 
multiple areas of research, the results of which all can be 
used 1 day to improve the tool set we rely upon to carry out 
our counterterrorism mission.
    In addition to partnerships that begin here inside the 
beltway, we are expanding our partnerships to include those in 
industry. We are reaching out to farmers, cattle ranchers, food 
producers, and distributors, among others. In the 
Counterterrorism Division here at FBI headquarters, we are 
directing the formation of a program called Agri-Guard as well 
as the formation of agroterrorism working groups nationwide. 
The Agri-Guard program will be modelled after our existing 
Infraguard initiative. The Infraguard initiative was started 
back in 1996 and today serves as a virtual and secure link with 
a vetting national membership of approximately 12,000 
representatives of companies throughout the U.S., representing 
not only the computer industry for which this was started, but 
beyond.
    Using the Infraguard technology backbone, we are moving 
forward today to create this very same informational exchange 
within the food and ag sector. We have the money and resources 
now dedicated to this task, and we are working with our Federal 
partners to maximize the degree of coordination that both the 
States and industry expect from us.
    Beyond this initiative, just in the past several year 
weeks, I communicated with our 56 field offices and directed 
each to establish formal agroterrorism working groups within 
their respective territories. This directive will lead to a 
more formal and recurring meeting of key figures from the food 
and ag sector in each of the 56 field office territories. 
Although some of this is already in place in certain areas of 
the United States, my intention is to strengthen and to a 
degree standardize our partnerships across the country. We are 
working with our Federal partners and looking forward to 
recognizable progress in this area by bringing together on a 
regular basis for the purposes of prevention, awareness, 
intelligence, investigative response, and crisis management, 
State-level groups whose membership will include the State 
Secretary of Agriculture , for instance, the State's chief 
veterinarian, leading law enforcement figures, public health 
officials, and pertinent representatives of the food and ag 
sector.
    If I may depart just for a moment, I can tell you that from 
the State of Georgia as well as from your State, Senator 
Roberts, we have outstanding participation from across the food 
and ag sector, and, frankly, we could use those as models to 
push out to the rest of the country for how to bring these 
groups together.
    On another front, the FBI has partnered with DHS, USDA, 
FDA, and private industry to conduct site surveys of specific 
and significant food and ag sites throughout the United States. 
I call this program the Strategic Partnership Program. The aim 
of this initiative conducted closely with our industry 
counterparts is to bring together subject matter experts whose 
analysis of a specific site can lead to the identification of 
potential vulnerabilities that could represent the opening a 
terrorist might exploit to plan for and carry out some sort of 
attack. This project is also intended to educate and raise a 
level of awareness of area law enforcement, lead to the 
development of intelligence collection strategies around these 
sites and/or vulnerabilities, and to facilitate discussions and 
planning to develop mitigation strategies for early detection, 
deterrence, disruption, interdiction, and prevention. The sites 
will include the entire production cycle from farm to fork.
    Finally, the FBI today operates 105 joint terrorism task 
forces geographically dispersed throughout the United States. 
As you probably know, each of these are comprised of municipal, 
county, State, and Federal law enforcement personnel. These 
JTTFs are the focal point for counterterrorism efforts here in 
the United States and respond to all manner of threats.
    The JTTFs in each field office are aided by highly trained 
WMD coordinators, weapons of mass destruction coordinators. 
Each of these WMD coordinators maintain their own liaison 
network within law enforcement and public safety personnel and 
in their respective territories, and it is through this network 
that all manner of information passes. The WMD coordinators 
are, in turn, closely connected to our headquarters-based WMD 
domestic terrorism section where substantive multi-discipline 
scientific guidance and expertise is available 24-7. If we 
don't have the scientific guidance resident at FBI 
Headquarters, our WMD team maintains an excellent array of 
partnerships across the community, including those folks seated 
here today that we can get answers from.
    We also operate the hazardous materials response unit and 
27 strategically located hazardous materials response teams 
throughout the United States. These response capabilities 
significantly enhance our ability to collect samples and 
effectively support threat assessments when needed.
    Farmers, ranchers, food distributors and producers are as 
much a first line of defense as our efforts need to be. If a 
rancher sees unusual symptoms of illness in a herd, if a food 
distributor notes suspicious activity in one of their 
distribution centers, we must be able to rely upon rapid and 
effective coordination so that all of us, including those here 
at the table who may be potentially involved, have the head 
start we need. All of us here are working to improve that.
    Our goal is to impress upon those in the food and ag 
sector, and, frankly, those of us who need to work closely with 
them, of the need for increased cooperation, increased 
awareness, and the recognition that given the prevailing threat 
conditions, we need to chart in a more collaborative course. We 
have been met with excellent cooperation from all areas of the 
food and ag sector where we have been recently. I am very 
optimistic that as we work here to improve our own positions, 
the food and ag sector is ready, willing, and able to fully 
cooperate with us and where needed improve theirs.
    Thank you, sir. I would be happy to respond to any 
questions when they come.
    [The prepared statement of Mr. Lewis can be found in the 
appendix on page 67.]
    The Chairman. Thank you, Mr. Lewis.

 STATEMENT OF ROBERT BRACKETT, Ph.D, DIRECTOR, CENTER FOR FOOD 
  SAFETY AND APPLIED NUTRITION, FOOD AND DRUG ADMINISTRATION, 
                     COLLEGE PARK, MARYLAND

    Dr. Brackett. Good morning, Chairman Chambliss and members 
of the committee. I am pleased to be here today with my 
colleagues from the United States Department of Agriculture, 
the Department of Homeland Security, and the Federal Bureau of 
Investigation. FDA appreciates the opportunity to discuss our 
food counterterrorism activities.
    A great deal has been done in the last few years to enhance 
the safety of our food supply. FDA has worked with food safety 
agencies as well as law enforcement, intelligence gathering 
agencies, and the private industry to significantly strengthen 
the Nation's food safety system across the entire distribution 
chain from farm to table to better protect our food supply 
against deliberate and accidental threats. This cooperation has 
resulted in greater awareness of vulnerabilities, the creation 
of more effective production programs, new surveillance 
systems, and faster outbreak response capabilities.
    FDA is the Federal agency that regulates everything we eat 
except meat, poultry, and processed egg products, which are 
regulated by our partners at USDA. FDA's responsibility often 
extends to live food animals and animal feed, and FDA is also 
responsible for ensuring that human drugs, human biological 
products, medical devices, and radiological products, as well 
as veterinary drugs are safe and effective and that cosmetics 
are safe.
    In our food safety and defense efforts, FDA has many 
partners: Federal, State, local agencies, academia and 
industry. We are working closely with our Federal partners such 
as USDA, DHS, Homeland Security, Counsel to the White House, 
Department of State, the Central Intelligence Agency, and the 
FBI, but I want to especially emphasize our close working 
relationship with our sister public health agency, CDC, Customs 
and Border Protection at DHS, and USDA's Food Safety Inspection 
Service. FDA is working closely with DHS and other Federal 
agencies to implement the President's Homeland Security 
Presidential Directives, HSPDs. The President has issued HSPD-
7,-8, and-9 which identify critical infrastructures, improve 
response planning, and establish a national policy to defend 
the agriculture and food systems against terrorist attacks, 
major disasters, and other emergencies.
    The HHS and USDA Secretaries or their designees exercise 
key responsibilities as sector-specific agencies. DHS serves as 
the coordinator of the food and agricultural sector with HHS 
and USDA as co-leads for the food sector, and the USDA is the 
lead for the agriculture sector. This collaborative effort 
combines expertise from several Federal agencies as well as 
that of State and local officials and the private sector.
    Over the last past 3 years, FDA has been busy implementing 
the Public Health Security and Bioterrorism Preparedness and 
Protection Act of 2002. The Bioterrorism Act provided the 
Secretary of Health and Human Services with significant new 
authorities to protect the Nation's food supply against the 
threat of intentional contamination and other food-related 
emergencies. These authorities improve our ability to act 
quickly in responding to a threatened or actual terrorist 
attack as well as well as other food-related emergencies.
    I would like to mention just a few of the provisions of the 
Bioterrorism Act. Section 305 of the Bioterrorism Act requires 
registration of foreign and domestic food facilities that 
manufacture, process, pack, or hold food for consumption by 
humans or animals in the U.S. Thanks to this provision, FDA for 
the first time has a roster of foreign and domestic food 
facilities that provide food for American consumers. In the 
event of an emergency, the registration information will help 
FDA quickly identify, locate, and notify the facilities that 
may be affected.
    Section 307 requires the submission to FDA of prior notice 
of food, including animal feed, that is offered for import into 
the United States. This advance information enables FDA, 
working closely with CBP, to more effectively target 
inspections at the border to ensure the safety of imported 
foods before they move into the U.S.
    Section 306 authorizes FDA to access certain records when 
the agency has a reasonable belief than an article of food is 
adulterated and presents a threat of serious adverse health 
consequences or death to humans or animals. This enhances FDA's 
ability to track and contain foods that pose a threat to 
American consumers from accidental or deliberate contamination 
of food.
    I would like also like to briefly mention a few of our 
other programs. FDA has issued guidance on the security 
measures the food industry may take to minimize the risk of 
food that would be subject to tampering or other malicious 
criminal or terrorist activities or actions. To increase 
laboratory surge capacity, FDA has worked in close 
collaboration with the Food Safety Inspection Service to 
establish the food emergency response network to include a 
substantial number of laboratories capable of analyzing food 
for agents of concern. To enhance coverage of imported food 
shipments, FDA has expanded FDA's presence at ports of entry, 
increased surveillance of imported food, increased domestic 
inspection, and enhanced our laboratory analysis capacity. We 
have conducted extensive scientific vulnerability assessments 
of different categories of foods, determining the most serious 
risks of intentional contamination with different biological 
and chemical agents during the various stages of food 
production and distribution.
    FDA has established an Office of Crisis Management to 
coordinate the preparedness and emergency response activities 
within FDA and with our Federal, State, and local counterparts. 
We have embarked on an ambitious research agenda throughout FDA 
to address potential terrorist threats.
    In conclusion, due to the enhancements being made by FDA 
and other agencies and due to the close coordination between 
the Federal food safety, public health, law enforcement, and 
intelligence-gathering agencies, the United States food supply 
and the defense system is stronger than ever before; however, 
we are continuously working to improve our ability to prevent, 
detect, and respond to terrorist threats.
    Thank you for this opportunity to discuss FDA's 
counterterrorism activities to protect the food supply. I would 
be happy to respond to any of your questions.
    [The prepared statement of Mr. Brackett can be found in the 
appendix on page 71.]
    The Chairman. Thanks to each of you for those opening 
comments.
    The Government Accounting Office released a report in March 
reviewing efforts to protect agriculture from terrorist 
attacks. While the report acknowledges the efforts and progress 
currently underway at USDA and DHS, it cites certain 
shortcomings that need to be addressed. Can each witness 
address what your respective agencies are doing to address the 
conclusions and recommendations in the GAO report, what 
corrective actions are being taken in regard to the conclusions 
of the report?
    Dr. McCarthy, I am particularly concerned about the 
dramatic drop in the number of agriculture inspections 
following the transfer of inspectors from APHIS to DHS. Has DHS 
determined the reason or reasons for the decline in 
inspections, and what is being done to correct the problem?
    Mr. Conner, the report also notes the inability of the 
national veterinary stock pile to respond to a threat like foot 
and mouth disease within 24 hours. What are the limits to the 
development of the stockpile and what is needed to address 
animal disease issues to ensure an outbreak does not spread 
across a large geographic area and cause catastrophic economic 
loss?
    Ms. McCarthy. Thank you, sir, and we will certainly give 
you a more detailed description of the corrective action plans 
to the response to GAO for the record, because I would like to 
get those facts straight for you, and we have taken that report 
very seriously and have many actions that are undergoing across 
the department to respond to that.
    In particular on your question of inspections, and I will 
get back, again, the more specific details for you on the 
record, the approach that the Department of Homeland Security 
is taking on the inspections, though, is a risk-based approach. 
So we have increased the inspections on what we consider to be 
high-risk cargo coming into the country, and that has resulted 
in potentially less inspections on what we consider to be lower 
risk things coming into the country. The specifics on the 
number of inspections that are done at any place, I will 
certainly get back to you on the record, but I can tell you 
that the department as a whole has taken the issue of risk 
management at its core for everything that we do, and that is 
part of what is driving the changes in the inspection protocols 
at the borders.
    Thank you.
    Mr. Conner. Mr. Chairman, we take the report and the 
recommendations of the GAO very, very seriously. I think one of 
the issues they identified for the Department of Agriculture 
was our stockpile of vaccines, and the issue that we have there 
is that the department acknowledges that we do not have large 
stockpiles of the user-ready vaccines, particularly for issues 
like foot and mouth disease. What we do have, though, are 
significant stockpiles of the products that are necessary to 
develop the particular vaccines that will be used in the event 
that we would have an outbreak.
    I believe, Mr. Chairman, that the department is confident 
that we have contracts with manufacturers where in the event 
that we have a particular strain of hoof and mouth disease 
outbreak in a particular region, we are prepared to analyze 
that strain very, very quickly and determine the precise 
vaccine that would be necessary to manufacture that vaccine. We 
believe our contract specifies that within two or 3 days, you 
know, we have the ability then to receive the production of the 
vaccine tailored to that particular event, which can vary. Not 
all vaccines are applicable to every particular outbreak, and 
so we have the parent material. We have the contracts in place 
for the production of the vaccine that become necessary, but 
then let me also stress that the vaccine part of the control of 
this outbreak is an important aspect, but it is not the only 
aspect, and obviously the department continues to rely upon our 
traditional methods of quarantine and depopulation as the first 
line of defense in the event that we have a particular 
outbreak, be it hoof and mouth disease or some other incident.
    The Chairman. Mr. Lewis, Dr. Brackett, do you have a 
comment on the GAO report?
    Mr. Lewis. Mine is going to be very brief, sir. I am not 
familiar with this report, but I am going to get a hold of it, 
and if there is any corrective action required at DOJ or FBI, I 
will certainly get back to you on that and do so promptly.
    The Chairman. Thank you.
    Mr. Brackett. Mr. Chairman, although the report dealt 
primarily with agriculture issues, we looked very closely to 
find out what parts that we can take lessons from. Several 
things, one of which is that we do participate on the steering 
committee on the national veterinary stockpile and although it 
is primarily being concerned with biologics and vaccines at 
this time, our Center for Veterinary Medicine, which has 
oversight over drugs and devices that might be used with animal 
diseases, is looking to see how that might fit in the future.
    Also an important part has to do with communicating what we 
have learned from the many exercises that we have done over the 
years, including such things as Top-Off-3, and we are in the 
process of writing up our lessons learned and contributing that 
to the DHS web site so that the other agencies can see what our 
perspective has been on that particular issue.
    The Chairman. OK. Dr. McCarthy, you made mention of the 
work at Plum Island, which I think we would all agree with you 
are very much outdated, particularly with respect to the new 
types of potential biological agents that we need to make sure 
that we protect our food system from.
    Mr. Conner, I will have to tell you there is some 
apprehension. I have a feeling that Senator Dayton is going to 
ask you about why we were not able to determine the BSE issue 
more quickly than we were able to in recent weeks or, actually, 
recent months, and I am a little bit concerned about the fact 
that since September 11th, we have spent billions and billions 
of dollars on the issue of homeland security, but yet we don't 
have a lab in the United States of America that is capable of 
making an instantaneous decision on BSE, which is a fairly 
common disease in livestock. So I am a little bit concerned 
about where we are going relative to updating Plum Island, 
building a new lab, or whatever the answer may be to this 
issue.
    And I would appreciate it, Dr. McCarthy, you and Mr. 
Conner, addressing that a little more in detail.
    Mr. Conner. Well, Mr. Chairman, I will go first. On the 
issue of Plum Island, I will defer to Dr. McCarthy on that, but 
I will just simply note that since the transfer of that 
facility from APHIS over to the Department of Homeland Security 
in 2003, we have had excellent cooperation with DHS on this. 
They consult with us. We still have mission areas occurring 
within the Plum Island facility and the relationship and 
working together has been a great, and I will let her more 
specifically address future plans they may have for Plum 
Island.
    On the issue of anticipating Senator Dayton's concern, Mr. 
Chairman, I will just say the decision to go to Waybridge for 
the verification, the tests that were completed there, I 
believe we have the facilities within our laboratory system in 
this country to conduct the same tests that were conducted in 
Waybridge, England. In terms of a final call, if you will, in 
this situation where just for review of the committee, we did 
have the IHC test, which was negative, and the Western Bott 
test on the same animal showing positive some months later. We 
felt in this particular case given the experience that 
Waybridge has had in this issue because of all of the BSE 
situations in Europe and in England, which are many times the 
magnitude of the problems that we have seen here in North 
America, that we felt it would be best for them to be sort of 
the referree in the case of this situation where we had two 
conflicting results.
    But I don't believe there was actually any testing done by 
Waybridge that could not have been conducted in the U.S. if we 
would have chosen that option, but we felt it was best to go to 
the one institution that has probably had more experience with 
this than any place else, and I am thankful that our 
institutions here do not have a lot of experience in this 
situation as Waybridge has had.
    The Chairman. HSPD-9 established national policy to protect 
against terrorist attacks on agriculture and food systems. 
Specifically, the directive calls for both FDA and USDA to 
develop vulnerability assessments for agriculture and food 
sectors. What is the status of these respective assessments and 
how are the conclusions reached in them helping your agencies 
develop technology intervention and countermeasures to 
potential threats? Mr. Conner? Dr. McCarthy?
    Ms. McCarthy. Thank you, Mr. Chairman. I will touch on the 
response to HSPD-9 in the context of the previous question on 
Plum Island as well, because one of the recommendations out of 
HSPD-9 was to assess the Nation's facility capability to 
respond to not only our current agricultural mission 
responsibility, but what we may see as future emerging needs, 
particularly with agroterrorism.
    We at the Department of Homeland Security in close 
partnership with USDA have taken the issue of ensuring that the 
Nation maintains the critical national assets that it has in 
order to be able to be responsive to both the research, the 
diagnostics, and the operations that are necessary to protect 
the agriculture of this country. As a result of the studies 
that we have undertaken in the past and the assessment that we 
have undergone with state of the facility at Plum Island, we 
have underway right now internally a study that will conduct--a 
feasibility study that will be conducted to assess the 
requirements the Nation has for agriculture security and in 
particular the merging of those requirements from agricultural 
protection and into zoonotic diseases.
    We are working right now, we are working with the 
conceptual study, gathering the requirements in partnership not 
only with USDA, but also with our colleagues from HHS to 
determine what is needed in this nation in order ensure that we 
have that base for the future, the next 50 years. Plum Island 
has served us well, don't get me wrong, but the facility itself 
is not really what this is about. It is understanding the 
capability the Nation needs.
    In that respect, we have taken the recommendations of HSPD-
9 very seriously and have worked on that particular one in very 
close partnership with our colleagues from USDA and HHS. We 
were also tasked in HSPD-9 to reach out to the academic 
community, and to that end, we have created two university 
centers of excellence focused on agricultural security. The 
National Center for Foreign Animal Disease and Zoonotic Defense 
is led by Texas A & M and is very engaged with our work on 
developing agricultural countermeasures for not only foot and 
mouth disease, but Rift Valley Fever, avian influenza, and 
brucellosis.
    We also created the National Center for Food Protection and 
Defense which is led by the University of Minnesota, and they 
are very engaged in assessing the vulnerabilities of our food 
supply and developing mechanisms for modeling and also 
understanding protection of the nodes in our food supply. We 
have been engaged extensively with USDA in our joint research 
and development strategy to enhance the ability of the research 
community to respond to the emerging needs that we have in 
agricultural terrorism.
    Thank you.
    Mr. Conner. Mr. Chairman, I think I would just echo what my 
colleague has said, but to put a fine point on it from the 
Department of Agriculture's standpoint, I am advised we have 
completed seven assessments through our Food Safety and 
Inspection Service. I believe four assessments have been 
completed by APHIS, and I think we are working cooperatively on 
some others with FDA, obviously for the purpose of then sharing 
the results of these assessments across not only mission areas 
within USDA, but the various agencies that are involved in 
this.
    The Chairman. Senator Thomas and to my colleagues, with 
just three of us here, we will be a little liberal with the 5-
minute rules, unless somebody has a time crunch.
    So Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    I guess I have not been involved in this as closely as many 
have, but we have always had drug inspections to make sure that 
they are safe. We have had food inspections always. We have 
always checked things that are imported. Foot and mouth disease 
is not anything that is new. So I guess I am saying what are 
the most vulnerable areas? What is new? What are you doing 
differently? This is on bioterrorism. It has been awfully 
general, as you said, things that we have been doing forever. 
What are the highest priorities now that are different than 
what you did five to 10 years ago?
    Mr. Conner. Well, I will start out.
    Senator Thomas. You have reacted a little bit to what is 
being done differently because apparently we are in a different 
time, but you said a lot of it is not new.
    Mr. Conner. Well, I will start and then turn it over to my 
colleagues, Senator Thomas. I will speak only from the 
Department of Agriculture's perspective. What we are doing at 
the Department of Agriculture is, indeed, new. It is not a same 
ole-same ole that has been dressed up in now a homeland 
security package, if you will. The work that we are putting 
into these assessments, particularly working with the private 
sector in terms of making these assessments and providing 
recommendations on how they can help us in protecting the 
safety of the food supply, I mean the government is not----
    Senator Thomas. You have been doing that for years.
    Mr. Conner. Well, we have been involved in the safety of 
food in terms of inspection for pathogens, those kinds of 
situations. What we haven't been involved in is assessing the 
vulnerabilities of these particular institutions involved in 
food production, and I can give you a couple of props here, Mr. 
Thomas, just in terms of activities that would not have been 
part of anything the Department of Agriculture was doing 
before.
    For example, we have recently published, and I believe 
shared through the American Trucking Association, guides to 
security practices for transporting agricultural and food 
commodities. This is not about safety in the traditional sense 
of is there e. coli on the meat or something like that. This is 
about making sure that once those products are put on your 
truck, that there is no chance of someone or something somehow 
contaminating those products. This was not done before. This 
was not a traditional role of the Department of Agriculture.
    Through our web site, we have done a number of things. I 
just brought, again as a prop, brochure, the Threat to the 
American Livestock Industry that we are publishing. That, 
again, is not about the traditional methods of contamination, 
but about how you can make sure that the product that you are 
sending from farm to table is secure and that there is not an 
opportunity for those kinds of contaminations, be it 
intentional but possibly unintentional as well. That type of 
communication out to the local level has just not been a 
traditional role of the Department of Agriculture as well.
    So certainly, yes, we have always had communication with 
local people, but it has not been focused upon these threat 
matrixes as we now have, and this is all new activity for us. I 
point to the amount of money that has been spent at Ames, Iowa 
in that facility for upgrading so that we are on the cutting 
edge in terms of rapid detections of these. I point to the 
networking that we have among all of our laboratories to share 
information so that if something is detected in Ames, Iowa, 
that almost instantaneously a laboratory in North Carolina is 
aware of that so that they know what to be looking for. All of 
that kind of instantaneous type of communication and 
coordination was not present before. So it is new from our 
standpoint.
    Ms. McCarthy. Sir, I think you make a very good point, 
which is the fact that we are leveraging off of a huge base 
that this country has invested in for many, many years to 
protect the agriculture of the Nation, no question about it. I 
think what has happened in particular from the Department of 
Homeland Security's perspective, is we come with the sense of 
urgency of what must be done faster, what things must be 
accelerated and why.
    In particular, let me touch on one point, and that is the 
issue of understanding the difference between a potential 
natural outbreak and an intentional introduction, for instance 
the possible intentional introduction of foot and mouth disease 
into this country. If it is intentionally introduced in 
multiple places around the country, the potential economic 
impact could be much greater. Our responses could be 
overwhelmed much more quickly. So we need to be able to 
understand whether or not there are different types of 
responses. We need to be able to apply our tools in ways that 
haven't been done before because of the sense of urgency.
    It is also the matter that it may hop over borders. So the 
fact that we have FMD-free borders surrounding us may be not 
the paradigm we are working with now. If the material can, 
indeed, be put in a plastic bag and carried over from a foreign 
country and introduced, then our protection strategies may not 
be as robust.
    So we come with a sense of urgency. We come with the notion 
that we need to accelerate alternative response mechanisms. We 
also come with the notion that we merge in intelligence, and 
that is new. We hadn't been in that business in the 
agricultural business quite as much, and we work very closely 
now with our partners particularly in the law enforcement 
community.
    We have established for the first time an agricultural 
forensics capability. That is different from just diagnostics. 
That is the ability to do forensics in such a way that our law 
enforcement colleagues could use that information in a court of 
a law in a prosecution so that we could actually understand 
quickly who possibly perpetrated an event if it was 
intentional. That is an additional set of capabilities that we 
have brought to bear since the sense of urgency came into place 
with agroterrorism.
    Thank you.
    Mr. Conner. Senator Thomas, if I could just add one 
additional comment to my earlier statement as well, I was 
reminded that we have worked with FSIS-regulated industries to 
develop model food security plans for those individual plants, 
and I believe as of early May of this year, our Agricultural 
Marketing Service agency that is involved in the substantial 
procurement of those commodities for various uses within the 
Department of Agriculture is only procuring commodities from 
those plants that actually have the security plans in place. 
Again that is a relatively recent change for us.
    Senator Thomas. Thank you. I guess we need to make it a 
little more clear to everyone that if this is a different 
situation, we need to be doing something a little unique and a 
little different than we have been doing in the past and not 
simply talk about doing the investigation of drugs and food and 
everything we have always done. That doesn't seem to show that 
need for change.
    I appreciate it. Thank you.
    The Chairman. Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    My first question is to Chuck. Chuck, welcome home.
    Mr. Conner. Thank you, sir. Thank you.
    Senator Roberts. It is good to see you and we appreciate 
you here for the first time since your confirmation and your 
swearing in. My first question to you is who is in charge of 
the food security policy down at the department? I know that 
Mr. Stump is the head of your homeland security activities at 
the staff level. Jim Moseley has gone off to Afghanistan and is 
doing good work over there. I know Secretary Johanns is very 
interested in this. Is it you? Who is the lead dog?
    Mr. Conner. I will just tell you that the Secretary of 
Agriculture is closely involved in this effort, Senator 
Roberts, and I think that that is reflected in the time that he 
took to go to Kansas City this past May for the International 
Symposium an Agroterrorism. He was out there with you 
participating in that, and the Secretary is certainly in charge 
of this. We have an important team where I play a role in that 
as well, Jeremy Stump, and we have----
    Senator Roberts. So you are sort of a troika?
    Mr. Conner. Well, it is a big task, Senator Roberts.
    Senator Roberts. OK. Are you, the Secretary, and others 
receiving intelligence briefings that you need, and if so, how 
often do you receive these briefings?
    Mr. Conner. I believe we are. I think the briefings are 
available to us weekly, and if we need more than that, that is 
available as well. So I certainly have no complaints at this 
point.
    Senator Roberts. Dr. McCarthy, your testimony today 
mentioned several of the divisions within the Department of 
Homeland Security that are involved with food and agricultural 
security. I am going to ask you the same question. Who is the 
head of the policy over there at DHS? Is it the Secretary? 
Deputy Secretary? Under Secretary You? Who do we talk to?
    Ms. McCarthy. Yes, sir. Well, as you may have noticed in 
the Secretary's plan for reorganization, he has culled out 
specifically a policy office, which he is in the process of 
establishing right now. The Secretary, though, I can tell you 
personally takes the issue of agricultural security very 
seriously, and that is one of the major sectors of protection 
that we have deemed as a high-priority sector that needs to be 
protected.
    Our information analysis, currently our information 
analysis an infrastructure protection division of the 
department is responsible for coordinating the agricultural 
security interface that we have with the public and private 
sectors through the government and sector coordinating 
councils. They coordinate all the dialog that we have. We in 
the Science and Technology Directorate support them and support 
the Secretary through our ability to do research and 
development and through our operations of the facilities, and 
obviously in the border protection, the inspection work is done 
in the borders, but we work very closely with our colleagues in 
NIAIP because they have the lead in communicating and 
coordinating the activities, not only inside of the Government, 
but with the public and private sectors.
    Senator Roberts. I don't want to call an acronym. I want to 
call somebody. Is that you?
    Ms. McCarthy. Sir, you would have to call--I would 
recommend you call the Secretary of Homeland Security.
    Senator Roberts. He is a pretty busy fellow.
    Back in 2002, I joined an exercise held by the department 
called Crimson Sky. That was sort of a misnomer because it 
followed the experience of Great Britain in regards to their 
problems with their livestock herds. They used that method in 
regards in incinerating the animals, which is probably the 
worst thing you could have done, as we found out.
    There wasn't anybody else in town, so I played the role of 
President in this exercise, and it simulated the intentional 
introduction of foot and mouth disease in five different 
locations. By the way, the person who did that was from Iraq, 
at least in the exercise. The impact was incredible. In 6 days, 
if you do not detect the disease, that is when this or the 
effects of the disease first become obvious, and then it is too 
late. All of our exports stop. People in the cities discovered 
that their food doesn't come from grocery stores, and panic set 
in. The markets went crazy.
    Basically, we had States calling out the National Guard. 
That is when we had the National Guard in the States, not over 
in Iraq and in Afghanistan and everywhere else, setting up all 
sorts of border situations so livestock in Texas couldn't go to 
Oklahoma; Oklahoma couldn't go to Kansas; Kansas couldn't go to 
Nebraska; etc., etc. It got pretty rough except everybody 
finally realized that all of the States were involved and we 
had to do something.
    As President, I stopped the movement of all livestock. The 
Secretary of Commerce said you couldn't do that. So I fired 
him, and it felt very good. But it was absolute chaos and not 
only for 1 year and not only for livestock, but every crop. So 
if you talk about a real problem, that was a real problem.
    So, Chuck, can you tell me are you still conducting these 
kind of exercises? You probably don't want to have me play 
President, but at any rate, are we doing the exercises that we 
need to do in conjunction with your compatriots up there on the 
panel, and has that impacted the way you do business?
    Mr. Conner. President Roberts----
    Senator Roberts. No. That is Brownback. That is not me.
    Go ahead.
    Mr. Conner. First of all, we did appreciate the role that 
you played in that. I think that was a very important 
simulation for us and we learned a great deal from that. I 
would just harken back to some of the experiences and, again, 
what we learned from that just in terms of the importance of 
quarantine and the role that that plays in an event like this, 
and I think others mentioned earlier the GAO report, this focus 
upon the vaccines. I think one of the problems you have with 
relying upon the vaccines to control situations like this is 
the fact that it does not do much for you in terms of 
international.
    Senator Roberts. We had to terminate almost every herd in 
America. I mean that was the end result. It was an incredible 
experience when you really finally got down to the final answer 
to stop what was going on. We had to call out the National 
Guard and call out the military. Quite frankly, we ran out of 
ammunition. It was a mess, and then you had PETA on television, 
and I can't describe the utter chaos that happened.
    Mr. Conner. I was there, if you recall, sir.
    Senator Roberts. It was something that I had quite not 
expected all of the ramifications to happen. If we have that, 
we don't have the vaccines to do that.
    Mr. Conner. No.
    Senator Roberts. We had to dig ditches miles long out of 
the water supply to get rid of the animals, and it was just 
absolutely devastating, which really gets back to the 
intelligence factor and are we getting enough intelligence.
    Your prepared testimony discusses the Food and Agricultural 
Government Coordinating Council as the Department of Homeland 
Security, USDA, and HHS, along with Federal, State, and local 
officials, and I know that the DHS is the lead agency. How 
often do you meet?
    Ms. McCarthy. Well, sir, there is actually a meeting with 
the full coordinating council next week.
    Senator Roberts. Good.
    Ms. McCarthy. And the subgroups meet regularly. There are 
lots of discussions that go out across the community both 
internal to the Federal Government and also across into the 
private sector.
    Senator Roberts. Chuck, your prepared testimony talks about 
rapid test kits, and there is a lot of that in some 
legislation. I know Senator Cochran has been very interested in 
this. Can you tell me do we have the rapid test kits? I am 
talking about livestock here. Have they been distributed to the 
States? Are they located at the State labs? At the 
universities? At law enforcement, so on and so forth? Is there 
training? Where are we with that?
    Mr. Conner. Well, I think the rapid test kits are an 
important part of that, Senator Roberts, and I may need to 
supplement and get some APHIS people to give you the precise 
answer just in terms of their development, but let me just say 
the simulation, Crimson Sky situation that we had, underscored 
for us the importance of that rapid communication and knowing 
that if you get a positive hit somewhere in America, that 
information needs to be out there and distributed to our 
laboratory network very, very quickly so that we can get those 
containment measures in place before it does what happened in 
the simulation and gets too far away from us.
    That has been a big part of what we have done with the 
additional resources that have been given us, is to improve 
this rapid communication and coordination among our labs so 
that we know almost instantaneously when something like this 
happens and then provide the appropriate notification to our 
colleagues at Homeland Security. FBI has been tasked to work 
with our I.G. so that they are involved in the event if it is a 
law enforcement-type issue.
    Senator Roberts. That is after he reads the GAO report? 
Right?
    Mr. Conner. That is right.
    Senator Roberts. All right. We have heard a lot lately. We 
even had a vote on the Senate floor regarding the distribution 
of homeland security funding, high threat versus lower threat 
areas, city versus rule. That is what it was about.
    So, Dr. McCarthy, what priority is given to threats that 
are related to food and agriculture security when making these 
designations? Do you weigh in on that?
    Ms. McCarthy. Yes, sir, we do, and I can tell you the 
risked-based approach that we are taking right now looks at the 
integration of threats, vulnerabilities, and consequences. We 
are concentrating heavily, though, on things that we think can 
have a catastrophic impact to the country, a national scale 
impact. So threats to the agriculture are things that we take 
very seriously. Actually, many of those wind up falling in the 
catastrophic category. Catastrophic doesn't include not only 
casualties to humans, but it includes potential economic impact 
or societal disruption.
    So right now, the department has embarked on integrating a 
very solid rigorous risk-based approach to looking at those 
things that fall into the most catastrophic category, and those 
are the highest priority items that we are looking at, and 
there are all elements of the agricultural sector that are very 
important. Obviously, our big concern with foot and mouth 
disease reflects that.
    Senator Roberts. I am glad to hear that.
    On the Intelligence Committee, we are reminded daily in the 
national press that the al Qaeda is seriously looking at soft 
targets, and when we do the analyzing, first the collection and 
then the analyzing, we usually weigh intent and capability in 
trying to determine where best to focus our counterterrorism 
resources. Dr. McCarthy, do you believe we have enough 
information to determine the true threat?
    You mentioned the Agriculture Intelligence Working Group. 
Can you tell me how often that group meets?
    Ms. McCarthy. Sir, I would defer to my colleagues from the 
FBI to answer the issues specifically on intelligence.
    Senator Roberts. OK.
    Mr. Lewis. It is a once-a-month meeting, sir.
    Senator Roberts. All right. I will push for twice.
    The last question that I have, and I am very happy that the 
Chairman has returned, tomorrow the Intelligence Committee is 
going to hold a confirmation hearing for Vice Admiral Redd to 
be the first confirmed Director of the National 
Counterterrorism Center, and this is going to be--already is--
the primary entity in the U.S. Government responsible for both 
the strategic operational planning on counterterrorism and fund 
food security. Obviously, this is a very critical issue, as you 
have all have indicated.
    Do you, and you meaning the USDA and FDA, currently have 
representatives assigned to the National Counterterrorism 
Center, and if so, are there plans to expand your agency's 
presence there?
    Ms. McCarthy. Sir, yes, we do, and we work very closely 
with them on a regular basis, and we will more engaged with 
them, obviously, with the implementation of the WMD commission 
reports and the stand-up at DNI.
    Senator Roberts. I thank you for your response.
    And I have gone on for about 8 minutes, doing a soft shoe 
while you went to wherever you went, Mr. Chairman.
    The Chairman. Would you like a blow by blow?
    Senator Roberts. I think that is classified, sir, if you 
will remember.
    The Chairman. Senator Dayton has left us.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much for 
organizing the hearing. I am here to thank the witnesses for 
their witness efforts to help us identify the threat that could 
be posed to our agricultural resources by bioterrorism and to 
emphasize the importance of research in figuring out ways to 
better protect the food security of our country.
    I compliment all of you for your efforts to work across 
department jurisdictions and include the private sector as well 
as public sector agencies in this national effort. We 
appreciate the work that you are doing and we hope that through 
this hearing, we will learn more about how we can more helpful 
in supporting your efforts. If it means passing new authorizing 
legislation, then I am sure the chairman will call us together 
and put that challenge before the committee. If we are talking 
about appropriating funds that are necessary for new research 
facilities or for the empowerment of universities or other 
research capabilities in our country to do a better job in this 
effort, we would like to have the benefit of your advice and 
counsel in that way as well.
    Mr. Chairman, I have some specific questions which I will 
simply ask that we submit for the record. One thing I will ask, 
though, and that is about the facilities at Plum Island. I know 
that the capabilities there are limited, and what is your 
assessment of this facility in terms of its capacity to meet 
our national needs in regards to these potential threats?
    Ms. McCarthy. Thank you, sir, and we certainly are grateful 
for all the support that your committees have given us as well. 
As I stated earlier in my statements, we have assessed, 
obviously, the Plum Island Animal Disease Center, which is a 
facility whose lifetime, it has exceeded its useful lifetime as 
a facility. The Nation needs that critical capability. It needs 
the ability to have both the research, the diagnostics, the 
forensics, the training, and all the capabilities we need out 
50 years in order to provide the Nation with a base to be 
responsive to the agricultural missions and the agriculture 
security mission that we are all in.
    We have undertaken this year a feasibility study that will 
look at the requirements potentially for a new facility, 
merging those requirements with the requirements for mission 
responsibility from the DHS, from our colleagues at USDA, and 
from our colleagues at HHS, and we are building facility 
options from that set of requirements. So we take this very 
seriously and we take it as a national responsibility that the 
Nation needs to assess what it needs. We need to be able to 
provide the base that allows us to not only do the missions 
that we have done historically for the last 50 years, but also 
the missions that we have into the future.
    Thank you.
    Senator Cochran. Thank you, Mr. Chairman.
    The Chairman. Senator Salazar.

  STATEMENT OF HON. KEN SALAZAR, A U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Chambliss 
and, in his absence, Ranking Member Harkin. Thank you for 
holding this hearing on the issue of bioterrorism, because it 
is very much an important part of providing homeland security 
as well as making sure that we are protecting agricultural and 
rural America.
    I recognize the huge contribution that agriculture makes to 
our economy in this country and in my own State of Colorado, 
and I know that without agriculture, much of what I call the 
forgotten America would go by the wayside. So I appreciate you 
putting a focus on the issue of agroterrorism.
    And picking up on the comment from outgoing HHS Secretary 
Tommy Thompson, last year he said that we were extremely 
vulnerable to an agroterrorism attack, and in his statement 
about the threat, he said that it worried him, quote, every 
single night. I believe that he was right to worry.
    I have an opening statement that is much longer, and I will 
submit that for the record, Mr. Chairman, if there is no 
objection, and I have a couple of questions that I would like 
to ask.
    The Chairman. Your statement will be inserted without 
objection.
    [The prepared statement of Senator Salazar can be found in 
the appendix on page 93.]
    Senator Salazar. This is a question for Deputy Secretary 
Conner and for Dr. McCarthy, and that is a question on how we 
are coming together in the integration of DHS and the 
agriculture inspection services. I am trying to work my way 
through reviewing Secretary Chertoff's analysis on how the DHS 
organization is going and the recommendations that he has on 
how we ought to move forward with that. I recognize that 
whenever there was a major overhaul of government in the way 
that we have overhauled our government to deal with the 
challenge of homeland security, that there are very, very 
significant management challenges that we need face.
    Here on this particular issue, my understanding is we had 
some 3200 inspector positions that we had at USDA, that those 
inspector positions have been moved over to DHS, and my 
question is how is that integration going with respect to what 
these inspectors are currently doing? A question that is part 
of that as well is I believe there was an authorization to hire 
an additional 500 inspectors, and I would like a report on 
where we are, on the status of the hiring of those inspectors, 
all coming down, basically, to the question do we have enough 
horsepower within DHS, men and women power, to be able to deal 
with the inspections at our ports and making sure that we have 
the readiness to be able to have those inspections done on a 
timely basis.
    Ms. McCarthy. Yes, sir. Thank you very much.
    I do hope that the reorganization plan that the Secretary 
presented last week helps clarify some things, because it 
should give you insight into the importance he is putting on 
very specific functional areas, less so on the management 
structure, how the department is managed, but more so on the 
fact that there is an attention and a high priority put on 
given functional areas, and one of those functional areas is 
border protection. So you will see the department align itself 
so that all of us who participate in things that have to do 
with border protection are working together in a more seamless 
fashion. So it doesn't matter whether it is somebody out of my 
office that is doing research and development or it is somebody 
out of the intelligence unit or somebody out of Customs and 
Border Patrol or one of the other organizations. We will be 
working on teams that are focused on those functional areas.
    The border protection integration took place within the 
Customs and Border Patrol part of the department, and in the 
new organization, that has stayed together. So each port is 
responsible for doing that integration, and it is coming along, 
and I will certainly take back for you the question for the 
record of where we are on the hiring of inspectors. I can tell 
you it has been a challenging job internally for DHS across the 
board to recruit and retain the qualified people that we need 
to do in many of the jobs, but I can tell you that we have 
taken the integration of border security as a topmost priority 
in the department, and the Secretary is very committed to 
pooling the resources not only from the traditional elements 
that came into the department initially, but merging additional 
capabilities against those mission responsibilities into the 
future.
    Senator Salazar. If I may, Dr. McCarthy, a follow-up 
question in terms of the qualifications of the individuals that 
you are hiring or who are already on board to provide this kind 
of security, what kind of people are you looking for when you 
are trying to provide us the kind of border security that we 
want from the potential entry of some agroterrorist material 
that would come across our borders?
    Ms. McCarthy. That is a very fair question, sir, and I will 
take back the question for the record on the specifics of the 
qualifications because I am not in that business, but I do know 
that they have held a very high standard of bringing people in 
and making sure that they were properly qualified and properly 
vetted for the positions that are involved, and I will be happy 
to respond to you in writing on the specifics of the 
qualifications for those inspectors, sir.
    Senator Salazar. Just a follow-up, Mr. Conner, for you in 
terms of the USDA, to lose 3200 employees from this agency that 
has significant responsibility of making sure that we are 
protecting our consumers and our agricultural products, what 
kind of impact has that had to the historical pre-9-11 function 
within USDA?
    Mr. Conner. Well, it has not removed, if you will, Senator 
Salazar, our role in this process within this matrix. We 
continue to have jurisdiction on meat, poultry, and egg 
inspection. We have a significant role in that process for 
imported product, and that extends way beyond just simply at 
the point of entry into the United States. Our Food Safety and 
Inspection Service personnel are located in the foreign 
countries that are shipping the product to us before it even is 
destined for the U.S. There has to be a certification that the 
standards used in that production are equivalent or as strong 
as what they are in the U.S. We certify that equivalency and 
then audit at the point of processing in the foreign country.
    So our role begins and, as well, our FSIS inspectors are 
present. Every container of these products that does enter the 
country, you know, is visually inspected to make sure that it 
shows no signs of tampering or anything at that point. I 
believe we have just added 26 new people at our ports of entry 
for that specific purpose.
    So it has by no means eliminated our role, and we take this 
whole issue of equivalency and assurance of the meat, poultry, 
and egg product coming into this country quite seriously.
    Ms. McCarthy. With respect, sir, if I might add one thing, 
I would encourage you to view Homeland Security as the steward 
of the homeland security mission. The fact that people move 
between one agency and another does not negate the fact that we 
have a national mission, and we are the stewards of a national 
mission, and our responsibility is to provide the Nation with 
the best capability and we work closely in partnership in a 
different way than this government has ever done with our 
partners in the Federal Government and also the State and local 
and private sector.
    Mr. Conner. If I could add, Senator Salazar, as well, 
actually, I believe in the legislation APHIS continues to set 
the policy for the employees that are under the jurisdiction of 
the Department of Homeland Security as well. So it is a strong 
cooperative relationship.
    Senator Salazar. Thank you very much, and Mr. Chairman, 
just one concluding comment, and that is for those of us who 
come from rural States, and all us who sit on this committee I 
think have a special place in our heart for the rural 
communities. When I travel in my own State of Colorado and I go 
to the small communities and see the water tanks and the grain 
elevators and the potato warehouses, and I see those all over 
my native valley in the southern part of Colorado, I think it 
is just important for us to continue to look at the challenges 
that we face in homeland security, because it will be one of 
our major challenges for this twenty-first century and making 
sure that we are putting the right kind of resources and the 
right kind of attention out in those wide expanses of America.
    So I think this hearing dealing with agroterrorism is 
particularly important in addressing at least a part of that 
issue. So I appreciate you holding this hearing very much.
    The Chairman. Well, thank you, Senator, for your keen 
insight and your interest in this issue, and I think in 
Chairman's Cochran's Appropriations Committee, we appropriately 
dealt with the exact issue you are talking about, and that is 
where to put the resources. We simply can't forget rural 
America, and I think we did that in the homeland security bill 
last week.
    Mr. Lewis, I want to kind of switch gears a little bit 
here. I know you testified before the Environment and Public 
Works Committee recently relative to ecoterrorism, and it is my 
recollection that over the last several years, we have had some 
incidents relative to ecoterrorism such as the physical 
destruction of some facilities in the western part of the 
country as well as some environmental groups who are really 
extremist-type groups who have done things such as putting 
blades in trees and not allowing our loggers out there to 
harvest trees and whatnot. I know that we have identified those 
groups. I assume we are continuing to monitor those folks. Have 
the number of these instances decreased in the last several 
years?
    Mr. Lewis. Ecoterrorism, sir, is the No. 1 priority of the 
domestic terrorism portion of our counterterrorism division. It 
is so because when you look at the last 10 years of activity 
from the ecoterrorists, what they have run up in terms of 
numbers of incidents and dollars worth of destruction far 
exceeds anything else going on in this country in terms of 
domestic terrorism or domestic base.
    With respect to this issue here today, we have seen very 
limited incidents, two I think in the last five or 6 years, not 
of any substance at all. They are much more oriented today 
toward things like housing developments, condominium 
developments, animal releases. SUVs, of all things, are on 
their scope. Because we characterize this back at headquarters 
as part of the domestic terrorist program, it sits on the JTTFs 
just like international terrorism matters do all across the 
country. It gets the same push in my every single field office 
as does international terrorism matters. I think that is 
important. It is on the radar all across the country.
    Let me also tell you that up here, not only with the 
committee that you have mentioned, but the Senate Judiciary 
which I have testified before and most recently talked to 
staffers on, there is an interest, and I hope it continues, in 
amending legislation that I think we need to strengthen the 
toolbox that we use to take to these people. At the present 
time, I would consider the threat of agroterrorism from this 
side of the domestic terrorism problem to be minimal, based on 
what we know today. There is an awful lot going on in this 
country in this area from an investigation intelligence 
collection standpoint. I can't go into that, obviously, during 
this type of hearing, but we have a very good lens, I think, 
through which we look to see what is going on around the United 
States, what they are interested in, and what we see as their 
planned activity over the next several months.
    The Chairman. Thank you.
    Senator Roberts.
    Senator Roberts. Dr. Brackett, we can't let you leave 
without a question. You mentioned in your testimony you have 
issued some specific guidelines, security guidelines, for the 
milk industry. I want to know what kind of response you have 
received from the industry and how well they are working with 
you to address your concern. I think there has been a little 
push-back on behalf of the producers.
    Mr. Brackett. Well, Senator Roberts, actually we have been 
working very close with that particular industry at their 
request, I might add, to help them in several different ways, 
first of all, to the develop the guidance documents that you 
refer to, but also to share with them what we know about what 
their potential vulnerabilities might be and how they might 
take actions to avoid that. What we are hearing is that, for 
the most part, the industry, processing industry, is adopting 
much of the guidance. It is a process. It is in process. On the 
production side, I think that that is coming as well, and I do 
know that the associations that represent the dairy farmers are 
working with them to try to assist them in adopting some of the 
guidance documents that we provided on specific issues or 
specific parts of the guidance documents that are relevant to 
them.
    Senator Roberts. So it is a good news situation?
    Mr. Brackett. It is. There is always room for improvement, 
and we are working with the industries and with the 
associations to help do that, but we have gotten good response 
from them, we think.
    Senator Roberts. We talk about the livestock industry. If 
you really want to look at something where we talk about a soft 
target or whatever kind of target it is, you know, obviously 
milk would really be one that somebody could choose.
    Chuck, I have one final question. A lot of people are 
concerned in the world health and agriculture arena that we 
have not received any complete information from China in 
regards to the true scope of the avian influenza outbreak in 
that country. So on the issue of this nature that could have a 
major consequence for both animal health and also human health, 
who is the lead agency? Is that you or the Department of 
Homeland Security? FBI? Or is it, again, a concerted effort, 
working closely together, of course?
    Mr. Conner. DHS would be the lead on this, working with us 
is my understanding, Senator Roberts.
    Senator Roberts. Well, I have a suggestion. Back in 2002, 
you used some of your supplemental funding provided by Senator 
Cochran to establish what is called plant disease and animal 
health monitoring networks, and there are labs located at 
several universities, and I want to give you kudos, because it 
is my understanding that this network was used to quickly 
diagnose the discovery of the soybean rust last week in the 
U.S., and you alerted all the producers and they knew about it 
and they watched for it and they could treat it if, in fact, it 
happened. We really limited what could have been a real tough 
problem.
    So my plea to you is take a look at these labs and these 
networks, more especially with something like this avian 
influenza, which according to some could be absolutely a very 
serious outbreak not only for this country, but for around the 
world.
    And I thank you for your efforts in that regard and I thank 
the panel.
    The Chairman. Let me also thank you for being here this 
morning and providing great insight and educating the members 
of the committee on this issue. Some of you have already been 
told that you have written questions that will be coming to 
you. There may be others as well. The record will be held open. 
I would ask that you get us your responses as quickly as 
possible. Again, thank you for your service to our country.
    The Chairman. We will now move to our next panel. The next 
panel consists of Dr. John Sherwood, head of the Department of 
Plant Pathology at the University of Georgia in Athens; Dr. 
James A. Roth, Director of the Center for Food Security and 
Public Health at Iowa State University; Mr. James Lane, Ford 
County Undersheriff, Dodge City, Kansas; Mr. Mark J Cheviron, 
Corporate Vice President and Director of Corporate Security and 
Services at Archer Daniels Midland Company in Decatur, 
Illinois.
    Mr. Roberts, I understand you have an introduction.
    Senator Roberts. Mr. Chairman, we have heard a lot today 
from our Federal officials on this topic. As you know, one of 
the most important topics in this fight is that to deter and to 
detect one of prevention. An important player in this role 
would be our farmers, our ranchers, our agribusinesses, our 
veterinaries, and law enforcement at the local level.
    We had a hearing before 9-11. The Intelligence Committee, 
the Armed Services Committee, and we have even had 
appropriators there. It was that important. We asked 41 
agencies in the Federal Government who is in charge, are you 
ready in regards to international security and any kind of a 
terrorist attack. Of course, everybody said they were in charge 
and they were ready. The last person to testify was in charge 
of the Sheriffs Association, and he was from Arapaho County, 
Colorado, and he said, Well, boys, all these feds are here 
already, but it is going to take you 72 hours to get out to 
Arapaho County, and I just want to tell you one thing: Until 
you all get there, I am in charge.
    So I think that is an important point to make, and I am 
proud to say that one of the most significant undertakings in 
this area has been undertaken by the Ford County, Kansas 
Sheriff's Office and the Kansas Bureau of Investigation and 
also Kansas State University, and they have been led by the 
Ford County undersheriff, James Lane.
    The chairman just asked me, James, if we have an 
oversheriff as well as an undersheriff. You can speak to that.
    James is with us today. His efforts have led to a 
substantive research report funded by the National Institute of 
Justice. This report has just been completed. I believe it 
includes many recommendations that will be a blueprint for 
other law enforcement folks around the country.
    I am not going to steal James's thunder, so I will not go 
into all the details of their efforts, but I say that group has 
done just remarkable work. I am very proud of the effort of 
James and my home county, and, more importantly, I am very 
proud to say that he comes from Dodge City America, and I thank 
you, Mr. Chairman.
    The Chairman. I'll tell you, Mr. Sheriff, any secrets you 
want to share with the committee about the Chairman of the 
Intelligence Committee while you are here will be welcomed.
    Senator Roberts. James, you know that is all classified.
    The Chairman. Gentlemen, thank you all very much for being 
here to dialog with us on this very critical issue, and, Dr. 
Sherwood, I won't go into a formal introduction of you, but 
obviously you probably noticed my hand over my heart when I 
said you were from the University of Georgia. We are very 
pleased to have you here, and we will start with you and come 
right down the row.
    All of your statements will be submitted for the record, 
but we would appreciate and look forward to any opening 
comments you have. Dr. Sherwood.

 STATEMENT OF JOHN SHERWOOD, PH.D., HEAD, DEPARTMENT OF PLANT 
       PATHOLOGY, UNIVERSITY OF GEORGIA, ATHENS, GEORGIA

    Mr. Sherwood. Thank you, Mr. Chairman. Thank you for 
inviting me here today to comment on biosecurity preparedness 
and efforts to address agroterrorism threats posed by plant 
diseases that impact the food, feed, and fiber of our nation.
    My name is John L. Sherwood, and I am professor and head of 
the Department of Plant Pathology at the University of Georgia. 
I am also representing the American Phytopathological Society, 
or APS, the premier organization of scientific leaders who work 
to keep plants heathy. Our member scientists are employed in 
universities, private industry, and agencies within the State 
and Federal Governments.
    The U.S. has been blessed with vast tracks of productive 
land, but at times plant diseases have had significant economic 
and social impact. Today, plant pathologists are facing soybean 
rust and sudden oak death among other diseases that affect the 
vitality of our fields and forests. As with the diseases 
affecting animals and humans, new diseases of plants are 
regularly encountered here and abroad.
    Positive steps to protect U.S. crops have been taken. 
Examples are the National Plant Diagnostic Network, the 
regulatory activities toward mitigating exotic pathogens by 
APHIS and State Departments of Agriculture. The EPA approval of 
Section 18 requests to provide expanded management tools to 
minimize the potential impact and damage caused by soybean 
rust, and the establishment and revitalization of crop 
biosecurity panels or centers within various government 
agencies.
    Four key components of an effective approach to mitigate 
acts of crop terrorism and maintain safe and productive crop 
systems are strategic anticipation of potential threats, 
prevention of a bioterrorist attack, preparedness to respond to 
an attack, and coordination of these strategies. The foundation 
of security is identifying potential threats through strategic 
anticipation. Each year, plant pathologists in the public and 
private sector prepare to thwart diseases that may affect our 
nation's plant production systems. Fundamental to any aspect of 
plant biosecurity is understanding the biology of how plants 
get sick. This is why support of basic and applied research in 
a competitive grants process is essential for the security of 
our nation's feed, food, and fiber production system.
    Prevention efforts must be directed toward securing the 
Nation against pathogens not yet in the U.S. Currently, much 
effort is spent on regulating pathogens that are widespread and 
endemic in the U.S. These pathogens pose no more threat in 
regard to biosecurity than they annually cause in naturally 
occurring epidemics. Such natural epidemics may be devastating 
in a given locale during any growing season, but extensive 
regulation of such endemic pathogens limits the ability of the 
scientific community to investigate and develop appropriate 
management strategies and results in squandered resources.
    Effective communication between Federal agencies and 
scientific societies such as the APS will provide a solid 
foundation to prioritize these needs. As 100 percent prevention 
is impossible, we must be prepared for the introduction of 
pathogens. The recent establishment by the USDA CSREES of the 
National Plant Diagnostic Network that is dispersed among the 
land grant universities is working to establish coordinated 
efforts in APHIS, State Departments of Agriculture, and private 
seed companies to minimize the impact of plant diseases.
    The elements for an effective national response plan and 
crop biosecurity are coming into place across State and Federal 
Governments. While the greatest consideration must be given to 
threats that directly impact human and animal health, we 
emphasize that long-term human and animal health is dependant 
on sustainable agriculture production systems in the U.S.
    As I indicated, there are many activities underway. What 
appears still to be lacking today as a scientist from outside 
the Government, and the biggest void to assuring success in all 
our efforts is effective communication, coordination, and 
strategic planning among the many entities that are charged to 
protecting plant health. Following 2 years of planning and 
solicitation of stakeholder input, in the fall of 2004 the APS 
released its proposal for the establishment of the National 
Center for Plant Biosecurity (NCPB) within the USDA as a 
Federal coordinating office staffed by Federal employees and 
administrated at the level of Office of the Secretary of 
Agriculture to coordinate efforts in crop biosecurity. The NCPB 
will function as a visionary strategic planning and 
coordinating entity, link Federal agencies and staff 
responsible for plant biosecurity, and not duplicate efforts 
underway.
    This proposal has received wide support and endorsed by 
many scientific societies. The NCPB will provide a strong 
framework and leadership for anticipating, protecting, 
responding to, managing, and recovering from disease outbreaks 
as mandated in Presidential Directive HSPB-9.
    In conclusion, the geographical expanse and economic 
importance of the U.S. agriculture enterprise creates a 
vulnerability for the intentional or unintentional introduction 
of plant pathogens that could directly affect crop yield and 
the viability of our crop production systems in our fragile 
rural economies. New investments in infrastructure and 
resources necessary to protect and maintain plant health will 
have significant social and economic impact both in the 
immediate future and for generations to come.
    [The prepared statement of Mr. Sherwood can be found in the 
appendix on page 96.]
    The Chairman. Dr. Roth.

STATEMENT OF JAMES A. ROTH, DVM, Ph.D, DIRECTOR, THE CENTER FOR 
 FOOD SECURITY AND PUBLIC HEALTH, IOWA STATE UNIVERSITY, AMES, 
                              IOWA

    Dr. Roth. Thank you, Mr. Chairman and members of the 
committee, and thank you for holding this important hearing 
today and for the opportunity to testify before you.
    I am the Director of the Center for Food Security and 
Public Health in the College of Veterinary Medicine at Iowa 
State University. Our center's mission is to increase national 
preparedness for accidental or intentional introduction of 
disease agents which threaten food security or public health. I 
would like to thank Senator Harkin for his vision in providing 
funding to establish the center so that we can work to carry 
out this important mission.
    U.S. agriculture is highly vulnerable to the accidental or 
intentional introduction of foreign animal diseases. Many of 
the foreign animal diseases are zoonotic, meaning that they 
also infect people, and can cause serious public health 
problems. Agents against animals have been considered as a 
component of nearly every nation-sponsored offensive biowarfare 
program.
    Significant progress has been made in recent years to 
better prepare U.S. agriculture and public health. The national 
animal I.D. system is being developed. Expert working groups 
have been convened to establish research and vaccine 
development priorities. A number of States have organized or 
are working to organize animal emergency response teams. 
Veterinary diagnostic laboratories are networking to enhance 
national capacity and to better share information, and Congress 
has nearly completed funding for the modernization of the 
National Center for Animal Health in Ames, Iowa. These 
activities need to continue.
    Despite the progress, the U.S. continues to have inadequate 
infrastructure for prevention, detection, response, and 
recovery from foreign animal and zoonotic diseases. The 
national academies are finalizing two reports that detail 
current needs for prevention, detection, and diagnosis of 
animal diseases and for veterinary research facilities and 
training. The significant challenges that I will focus the rest 
of my testimony on are the vulnerabilities and needs I consider 
the most important for protecting public health, animal health, 
and U.S. agriculture from disease threats. These priorities 
include the rapid development of vaccines and anti-virals for 
high-priority foreign and zoonotic diseases, correcting major 
deficiencies in the laboratory capacity for animal health 
research and disease diagnosis in the U.S., and strengthening 
the human resources needed to prevent, prepare for, respond to, 
and recover from a devastating foreign animal or zoonotic 
disease.
    Homeland Security Presidential Directive-9 calls for the 
creation of a national veterinary stockpile. Rift Valley Fever, 
Nipah Virus, and avian influenza are especially significant 
threats because of their contagious nature and the fact that 
they can cause serious illness and death in humans. A 
relatively modest investment could result in the development 
and production of vaccines for these three diseases for the 
national veterinary stockpile. Animal vaccines can be developed 
for a small fraction of the cost of developing human vaccines 
and can be approved for use much quicker and with less risk 
than human vaccines.
    Project Bioshield calls for $5.6 billion over a 10-year 
period for the development of vaccines and therapeutics for use 
in humans. A portion of that funding should be designated to 
develop vaccines and other preventatives for zoonotic diseases 
in animals. This will effectively reduce exposure of humans to 
these diseases, provide protection much sooner than is possible 
through the development of human vaccines, and reduce the need 
to vaccinate humans.
    The second area I want to address is the deficiency in 
laboratory capacity for foreign animal and zoonotic disease 
defense. As has already been discussed today, the Plum Island 
Animal Disease Center does not have adequate capacity for the 
foreign animal disease research and diagnostic needs of the 
Nation. Planning should begin immediately for replacement of 
Plum Island animal disease center facilities, including 
biosafety level four facilities, and funding for new facilities 
should be appropriated as soon as soon as possible. I was very 
pleased to hear earlier today that that planning is beginning.
    There are no biosafety level four facilities for livestock 
disease research in the U.S. I am currently coordinating a 
project to develop a vaccine for the Nipah Virus, a biosafely 
level four pathogen which causes serious illness and death in 
pigs and in people. Our collaborators in Canada are using their 
biosafety level four facility to test the vaccine in pigs 
because the U.S. does not have facilities for this research in 
food animal species.
    The third major deficiency is a shortage of personnel 
trained in veterinary medicine. There is a serious and acute 
shortage of veterinarians in rural agricultural areas, in 
Federal Government agencies, and in disciplines such as public 
health and food safety. There is also a critical shortage of 
DVM-Ph.D research scientists and teachers to train future 
scientists, especially in high-priority areas of veterinary 
infectious diseases. Funding of a National Veterinary Medical 
Services Act, which was signed by the President in 2003, but 
not funded, and the Veterinary Workforce Expansion Act of 2005 
is critical to developing the human resources needed for 
foreign animal and zoonotic diseases defense.
    Thank you for your commitment to protecting U.S. animal 
agriculture, and I will be happy to attempt to answer any 
questions.
    [The prepared statement of Dr. Roth can be found in the 
appendix on page 101.]
    Senator Roberts. Thank you.

STATEMENT OF JAMES LANE, FORD COUNTY UNDERSHERIFF, DODGE CITY, 
                             KANSAS

    Mr. Lane. Senator Roberts, I am honored to provide 
testimony concerning the threats of agroterrorism and ongoing 
effort to protect American agriculture. Thank you for this 
opportunity and also thank you for your earlier comments.
    My remarks today will be from the local law enforcement 
perspective. I will offer the committee an overview of the 
agroterrorism preparedness activities that are occurring at the 
local level in the State of Kansas. Further, I will speak 
briefly about our experiences, interaction, and initiatives 
with State and Federal officials, and I want to emphasize that 
we are never satisfied with our current level of preparedness 
as this is a continuing process.
    The threat of agroterrorism is real. From recent events, we 
know there are forces that are seeking to harm America in any 
possible manner and that our agriculture is particularly 
vulnerable. We know that those who seek to harm us constantly 
change their tactics. We cannot overlook the threats to 
agriculture and our food supply.
    In 2002, a group of local committed agriculture leaders 
volunteered to join our community's first responders to develop 
a comprehensive plan in response to threats of terrorism. This 
group of leaders recognized the importance of preventing an 
attack on our base. This coalition continues to assess any 
animal and public health issues that pose a threat to our 
community. The Ford County Sheriffs Office, Kansas Bureau of 
Investigation, and the National Agriculture Biosecurity Center 
at Kansas State recently completed a 2-year research project 
that was sponsored by the NIJ. Senator Roberts referred to this 
project a little earlier.
    Previous writings and research identified the dire 
consequences of agroterrorism, but information related to law 
enforcement's roles and responsibilities were virtually non-
existent. This project establishes a baseline for law 
enforcement to better understand the livestock industry and 
define its role in working together in the common cause of 
prevention. Further research is required to answer many of the 
unanswered questions related to this topic.
    During the research project, several proactive initiatives 
were developed for law enforcement to specifically protect 
agriculture from criminal threats, including acts of terrorism. 
Local, State, and Federal agencies, including USDA and FBI, and 
industry participated in the research activities. The overall 
conclusion of this research project centered on the fact that 
terrorism, regardless of its former origin, is a local crime 
and preventive issues should be developed by local law 
enforcement in partnership with the livestock industry. 
Recently, a consortium of State and local animal health law 
enforcement emergency management and academia officials met in 
Kansas City to discuss strategies and prevention and emergency 
response issues related to agroterrorism. Representatives from 
South and North Dakota, Nebraska, Kansas, Oklahoma, Missouri, 
Colorado, and Iowa were present for this important planning 
session with the overall goal of sharing information and 
developing strategies that will work beyond State boundaries.
    Our Agri-Guard program is the community policing strategy 
with the goal of bringing sheriffs and industry leaders 
together to encourage reporting of and education for front-line 
industry personnel in suspicious activity. Because of the 
interdependence of the industry, this program reaches across 
all facets of ag from pre-harvest to post-harvest stakeholders. 
Many States have shown interest in this concept developed by 
front-line industry personnel and local law enforcement.
    You made mention of the ISA conference held in Kansas City, 
the International Symposium on Agroterrorism, and I think that 
offers a step toward the global initiative on preventing and 
responding to agroterrorism with that endeavor.
    Across-the-country planning activities such as field 
exercises, other training, and communication is occurring. 
These food chain homeland security efforts must continue with a 
high degree of urgency. Further, because of the potential 
consequences associated with an interruption of the food 
supply, we cannot become complacent. Most importantly, all 
communities must understand that they are not immune from such 
an event.
    Local first response agencies are far better equipped to 
respond to a WMD event because of funding from the Office of 
Domestic Preparedness. Agencies who just a few years ago could 
not offer their personnel protective equipment can now do so. 
In my perspective, the importance of intelligence information 
being thwarted from the ground up and the from the top down is 
critical. The local deputy sheriff responding to a report of 
suspicious activity thwarted by an alert industry professional 
is equally likely to identify and prevent agroterrorism as is 
the development of intelligence information at the national or 
international level. Lacking too, the industry must realize the 
importance of reporting such activity and being an equal 
partner in protecting itself.
    In closing, I testified before a congressional field 
hearing at Abilene, Kansas in 2002. Significant process has 
been made since that hearing, but there are many threats and 
challenges that have yet to be addressed. In my opinion, the 
costs of response are far too high and our focus must be on 
prevention. From the most simplistic initiatives of 
preventative policing to the most complex of disease 
surveillance and food safety technology , the need for 
prevention cannot be overstated. Federal grants and homeland 
security funding must be available to promote local 
preventative initiatives, research, and technology to protect 
against acts of agroterrorism. To eliminate confusion, 
miscommunication, and redundancy, it is essential that a 
national homeland security strategy addressing the threats of 
agroterrorism be developed and coordinated.
    It has been an honor for me to represent local law 
enforcement in presenting this testimony. Thank you, and I will 
answer any questions.
    [The prepared statement of Mr. Lane can be found in the 
appendix on page 105.]
    Senator Roberts. Mark, it is ADM's time.

  STATEMENT OF MARK J. CHEVIRON, CORPORATE VICE PRESIDENT AND 
 DIRECTOR OF CORPORATE SECURITY AND SERVICES, ARCHERS DANIELS 
                   MIDLAND COMPANY, DECATUR, 
                            ILLINOIS

    Mr. Cheviron. Good morning, Senator Roberts. I would like 
to thank you and the other honorable members of this committee 
for inviting me to address this issue.
    I am Mark Cheviron, Corporate Vice President and Director 
of Corporate Security for the Archer Daniels Midland Company. 
Archer Daniels Midland, or ADM, is an integrated agricultural 
processor. We buy farm products, corn, soybeans, wheat, oats, 
cocoa, and produce food ingredients like edible vegetable oils, 
flour, animal feeds, and renewable fuels along with other 
industrial products. In order to produce and sell more than $36 
billion worth of products each year, we rely on over 250 
processing plants, more than 500 grain elevators, and a 
workforce of 26,000 employees worldwide.
    Keeping our facilities secure and our people safe is my 
job. I have held this position for over 25 years. The threats I 
confront have changed over this period. While I used to worry 
primarily about threats of theft, fraud, vandalism, and 
workplace violence, I must now also be concerned about 
bioterrorism, and I am glad that you share that concern. 
America has made progress in hardening our defenses of 
traditional terrorist targets, military bases, government 
facilities, and commercial air travel. Only recently has our 
country turned its attention to better protecting crops, 
livestock, and the other products that flow from the farm 
communities.
    As President Bush has said, ``agriculture ranks among the 
most crucial of our Nation's industry, yet its reliability and 
productivity are often taken for granted.'' Protecting ADM from 
agroterrorism is my responsibility, but one that I cannot do 
alone. Business and government must work in partnership, and 
with each day, this partnership strengthens. We are grateful 
for the assistance we have received through the collaboration 
with organizations represented on today's first panel as well 
as with our local authorities. We are moving in the right 
direction, but more can be done.
    Let me outline four areas in which I see room for 
improvement. No. 1, agroterrorism is an international problem, 
infinitely more comprehensive than any one company or industry. 
In order to be better prepared, the private sector needs better 
access to counterterrorism units of the Federal Government 
which has the means and the expertise to identify emerging 
threats. I may know the most effective way to mitigate these 
risks for ADM, but I can only address these if I know the 
risks. Federal counterterrorism experts can help the private 
sector understand potential threats which will guide our 
development of effective and efficient countermeasures based on 
those risks. We can enhance our overall level of preparedness 
by working together and maximizing our collective strengths.
    Number two, a bioterrorist attack on our food supply can 
have a significant effect even when the amount of contaminant 
is small. The best response discovers and isolates a 
contaminant before it permeates and travels throughout the food 
chain. Today, the technology for detecting these threats is 
inadequate.
    Number three, certain food security regulations which are 
knee-jerk, theoretical, uncoordinated, and counterproductive. 
Everybody agrees that agroterrorism is a complex problem, but 
regulatory approaches that proscribe across the board 
infrastructure changes or one size fits all procedural 
requirements are doomed to fail.
    Number four, in order to win this war on terrorism, we need 
to enhance the exchange of information and expertise between 
the public and private sectors. This is harder than it sounds. 
We need to think through what restrictions are absolutely 
necessary to protect business and to protect sensitive 
government information and then devise a system that works for 
all interested parties. Information sharing is the key. It 
seems obvious, but in reality it means that timely and accurate 
information must flow both ways unimpeded and without 
hesitation.
    Finally, we would welcome the designation of a single point 
of contact in the government for reporting suspicious activity. 
No time should be lost trying to determine who should be called 
when suspicions are raised.
    Thank you, Mr. Chairman and honorable members of this 
committee, for allowing me to speak to you today. Agricultural 
processing is ADM's business. Ensuring the reliability and 
safety of our nation's food supply is everyone's business. We 
are proud to be your partner in the war against terrorism.
    This concludes my testimony. I would be happy to answer any 
questions you may give me.
    [The prepared statement of Mr. Cheviron can be found in the 
appendix on page 114.]
    The Chairman. Gentlemen, thank you very much.
    Dr. Sherwood, let me start with you. As you know, USDA is 
developing a national plant disease recovery system that will 
implement control measures and Develop resistant seed 
varieties; however, you propose the establishment of a national 
center for plant biosecurity in the secretary's office. Do you 
see the two proposals as complementary, or are they 
duplicative? Would it be more efficient to have one agency like 
ARS or APHIS handle all plant biosecurity rather than establish 
a new entity? And what does last year's detection of soybean 
rust tell us in terms of our preparedness to respond to a 
sudden outbreak of plant disease?
    Mr. Sherwood. Why don't we start with soybean rust, because 
that leads to a good reason why APS and myself support the 
establishment of a National Center for Plant Biosecurity. Last 
year at this time, we were working toward finding that person 
that Senator Roberts has repeatedly asked for, who do I call, 
and it was very difficult to find within USDA who was the 
person who we were supposed to call that was responsible for 
coordinating everything in regards to soybean rust.
    I think currently, the present structure for the National 
Plant Disease Recovery Act being embedded within an agency is 
that essentially here you have another example of an add-on to 
an agency. Many of these agencies already have very directed 
missions. Certainly within APHIS, it is a regulatory mission. 
Within ARS, it is a research mission. Within the Department of 
Homeland Security, it deals with areas of security.
    What I think is we need an office above the agencies, 
particularly within USDA, that would be able to coordinate 
these efforts, and so it would be that office one could call 
when there is potentially an outbreak of another plant disease 
such as soybean rust.
    The Chairman. All right. Dr. Roth, you heard me talk or 
quiz the previous panel relative to the facilities in this 
country from an infrastructure standpoint that can respond 
quickly to an outbreak of any sort. In your testimony, you cite 
the need for biosafety level three and biosafety level four 
facilities as well as the need to replace the Plum Island 
Animal Disease Center. As you well know, the swift detection 
and diagnosis of disease is critical to preventing and/or 
limiting its spread, and this lack of research capacity greatly 
diminishes our efforts to detect, diagnose, and prevent disease 
outbreaks. Given the great exposure of these facilities, how 
would you prioritize our physical infrastructure needs in 
research and development?
    Dr. Roth. I would agree with the other panel members that 
replacing Plum Island is a very high priority. The new National 
Centers for Animal Health Facilities in Ames, Iowa will have 
extensive biosafety level three capabilities. It is not allowed 
to be used for certain foreign animal diseases that need to be 
done currently on Plum Island. We have no biosafety level four 
facilities that are adequate or any that will house large 
animals in this country, and I would put that as an extremely 
high priority. It takes a fair amount of time to design and 
build those facilities. So we need begin that very soon.
    The Chairman. Senator Roberts.
    Senator Roberts. Thank you again, Mr. Chairman.
    Dr. Roth, I wish Senator Thomas could have been here to 
hear your testimony. I think it was very helpful, because I 
think I am struck on how you very clearly articulated the 
danger in regards to some animal diseases that also represent a 
threat to humans, and I thank you for your testimony. I don't 
wish you any luck with the Cyclones this year, but that is 
another subject entirely.
    You talked about Plum Island and the resulting impact that 
it has on research and the diagnostic capabilities. The 
chairman had stressed this and the need to upgrade or replace 
this lab along with the need for additional BL-4 labs 
throughout the country to conduct this kind of animal research. 
Do you have an estimate of how many BL-4 labs you think we need 
to in the U.S. to conduct this research?
    Dr. Roth. Currently, there are none that can house food 
animals, cattle.
    Senator Roberts. I know that. That is why I am asking.
    Dr. Roth. I think one very good one would be sufficient. 
Canada does have in the Canadian Food Inspection Agency in 
Winnipeg a biosafety level four facility. They have one room 
that will hold food animals. That is the only one in this 
hemisphere that I am aware of.
    Senator Roberts. Depending on the research being conducted 
and the public reaction to that, are there areas where these 
labs should not be constructed or are the security and control 
features such at that location that it is not an issue?
    Dr. Roth. The security and control features on the 
biosafety level three and four labs have to operate the way 
they are designed, and this is entirely possible. We have a 
number of biosafety level four labs with dangerous human 
pathogens in the middle of large cities, and we haven't had a 
serious accident that I am aware of.
    Senator Roberts. But that was my point.
    Dr. Roth. Yes, and I agree. These labs are designed to 
operate safely and contain the pathagens. We have foot and 
mouth disease in the lab in Winnipeg in Canada just north of 
the border. As was pointed out earlier, the border is not that 
much of a protection from animal diseases.
    Senator Roberts. I hope we can work this out.
    James, your testimony has discussed the Agri-Guard program 
you established as part of the National Institute of Justice 
grant, and you described it or I described it as something of a 
neighborhood watch program for agriculture. You know what has 
happened over the past several years when I would go out to 
Dodge and talk to producers and they would tell me to hush 
about agroterrorism, and I have literally been amazed by the 
breadth and the depth of the participation in the program in 
Ford County from the farm level to the processors. How did you 
get that to work so fast and so well? Could you give us some 
practical examples? You keep talking about processors and 
private industry and local law enforcement or whatever, but, 
you know, I complained about it. You turned it around. How did 
you do that?
    Mr. Lane. I don't know that I have the whole answer to 
that, but on the surface, I think I can tell you that our 
community enjoys a great working relationship between all 
levels of government, and I guess maybe what motivated us to 
work together was the fact that after the response is over and 
everybody that comes in to take care of it leaves, we have to 
live in that community. So I think what it does is it motivates 
the industry. It motivates us as first responders to reach out. 
One thing that I am constantly amazed at is that with the 
politics in the industry, that we can put people from different 
facets of the industry in the same room together and they don't 
brawl. They work toward the common good.
    I think what we did, and this is not to pat myself on the 
back, but I think what we did was we kept going to the door and 
banging on it and saying, you know, we want to work with you 
however we can, and I think that gave the industry the trust in 
the first response agencies that we did want to work for a 
common good. That is the only way I can answer that, sir.
    Senator Roberts. Well, I think you have developed a model 
that could be used throughout the United States. I don't say 
that you are the only model, by any means, but what can we do 
to help you implement these programs on a national level? 
Although I guess that would be the Department of Justice and 
the previous panel. So I will let that go.
    Your prepared testimony mentions the need for a national 
data base that could be connected to the Federal Terrorist 
Tracking System. So based on what you heard from our Federal 
officials today, do you think we are moving in the right 
direction in that regard?
    Mr. Lane. I hope so. I think we have to stress the 
importance of intelligence information being forwarded from the 
ground level up and vice versa, but what is more important, I 
think, is that the people looking at that intelligence 
information understands what it means. Without a significant ag 
background or understanding of ag, that intelligence 
information may not mean anything and we may miss something.
    Senator Roberts. I really appreciate that insight.
    Mr. Cheviron, you said the private sector needs better 
access to the counterterrorism units of the Federal Government 
to which has the expertise to identify emerging threats, and 
you go on and say I know the most effective way to mitigate 
these risks for ADM, but I can only address those risks of 
which I am aware. Would you care to amplify on that in sync 
with the question I just asked James in regards to the fact are 
you aware?
    Mr. Cheviron. Sir, we are aware of a lot of problems, but 
again, it is more on a parochial level as opposed to a Federal 
level. I think that the cooperation we have with the government 
now, the fact that we are meeting with so many different 
entities that are working so well together, is helping us 
understand emerging trends not only in terrorism, but in 
regular criminal activity. I think that is being shared much 
better now with the private sector.
    Senator Roberts. I am glad to hear that. You, on No. 3, 
said certain food security regulations which are knee-jerk, 
theoretical, uncoordinated, counterproductive. You must be 
talking about the Congress. Everybody agrees that agroterrorism 
is a complex problem, but some will be required to spend 
needlessly to meet the mandates that neither efficiently nor 
effectively mitigate the real risks they face. Give me an 
example.
    Mr. Cheviron. An example would be having a mandate to put a 
security officer on a dock in Ama, Louisiana to make sure that 
products going out of the country were safe and having a 
company pay for that.
    Senator Roberts. Why is that unnecessary?
    Mr. Cheviron. Well, I think our first priority should be 
what is coming into the country as opposed to what is going 
out.
    Senator Roberts. I expected that you would say that. All 
right. So it is not so much what we are shipping out; it is the 
risk of what is coming in, and I don't think we have paid 
enough attention to that, Mr. Chairman, and I know that you 
have been very concerned about it as well.
    Finally, let me make a suggestion. In the intelligence 
community, we are moving away from the concept of information 
sharing. Information sharing basically states that somebody 
owns it and they will share with you, but they have to push 
that button. You have to pull it from them. You may not even be 
aware that it is there even though you have a mission or a 
problem that directly affects you. Information access, however, 
means that you all work together and if you have the same 
mission, the same objective, the same problem, the same 
challenge that Dr. Roth is talking about that you do have 
access. My only suggestion would be that we need to be talking 
not only in the intelligence community, but also in regards to 
private business, information access; and, James, that is what 
you have been talking about as well. So that is just a 
suggestion.
    You say we have no easy avenue of recovery when this 
information is released inappropriately that causes hesitation. 
Senator Chambliss and I oversee 15 different intelligence 
agencies, not to mention the Department of Defense. That is 
like a wheel barrel with cats in regards to trying to get them 
to have access to information and see if we can't pull that 
out. The thought all of a sudden occurred to me that you have 
the same challenge in regards to private sector-wide with 
regards to your trade secrets or your information that is very 
special you. Do you have any comment?
    Mr. Cheviron. No, sir. I think you have wrapped it up 
pretty well in what you just said. I think that there is some 
hesitation on private industry, not only with ADM, but the 
private sector in general, and that is because they want to 
protect proprietary information that they have developed and 
they don't want to really share that. They want to make sure 
that if they do share that information with the government, it 
is protected.
    Senator Roberts. I appreciate that very much.
    Thank you very, Mr. Chairman, and thank you for an 
excellent panel.
    The Chairman. Mr. Cheviron, following up on that a little 
bit, when I put my intelligence hat on, information sharing is 
the top of my list. We talk a lot within the intelligence 
community about sharing information among Federal agencies, 
particularly law enforcement agencies, but what about in the 
private sector? Is the level of information sharing between the 
public sector and the private sector where it needs to be? Are 
we moving in the right direction or are you stone-walled there 
from the public side?
    Mr. Cheviron. No, sir. I think we are moving in the right 
direction. I think that there have been improvements, of 
course, the real basis for sharing information is trust. It has 
to do with people knowing each other, knowing what they can 
share and what they can't, and I think that the Government and 
the private sector are working their way toward sharing 
information for the common good. I don't think it has to do 
anything like it used to be with turf, with protecting the 
information and knowing something someone else doesn't know. I 
have really seen a change in that in the last three or 4 years.
    The Chairman. All right. Well, gentlemen, thank you very 
much for your participation in this hearing and being here 
today and helping educate the committee. The record is going to 
be left open for 5 days. There may be additional written 
questions that will be submitted to you, and I would ask that 
you get responses to those questions back to us as soon as 
possible.
    Thank you very much, and this hearing is concluded.
    [Whereupon, at 12:13 p.m., the committee was adjourned.]


      
=======================================================================


                            A P P E N D I X

                             JULY 21, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T2648.001

[GRAPHIC] [TIFF OMITTED] T2648.002

[GRAPHIC] [TIFF OMITTED] T2648.003

[GRAPHIC] [TIFF OMITTED] T2648.004

[GRAPHIC] [TIFF OMITTED] T2648.005

[GRAPHIC] [TIFF OMITTED] T2648.006

[GRAPHIC] [TIFF OMITTED] T2648.007

[GRAPHIC] [TIFF OMITTED] T2648.008

[GRAPHIC] [TIFF OMITTED] T2648.009

[GRAPHIC] [TIFF OMITTED] T2648.010

[GRAPHIC] [TIFF OMITTED] T2648.011

[GRAPHIC] [TIFF OMITTED] T2648.012

[GRAPHIC] [TIFF OMITTED] T2648.013

[GRAPHIC] [TIFF OMITTED] T2648.014

[GRAPHIC] [TIFF OMITTED] T2648.015

[GRAPHIC] [TIFF OMITTED] T2648.016

[GRAPHIC] [TIFF OMITTED] T2648.017

[GRAPHIC] [TIFF OMITTED] T2648.018

[GRAPHIC] [TIFF OMITTED] T2648.019

[GRAPHIC] [TIFF OMITTED] T2648.020

[GRAPHIC] [TIFF OMITTED] T2648.021

[GRAPHIC] [TIFF OMITTED] T2648.022

[GRAPHIC] [TIFF OMITTED] T2648.023

[GRAPHIC] [TIFF OMITTED] T2648.024

[GRAPHIC] [TIFF OMITTED] T2648.025

[GRAPHIC] [TIFF OMITTED] T2648.026

[GRAPHIC] [TIFF OMITTED] T2648.027

[GRAPHIC] [TIFF OMITTED] T2648.028

[GRAPHIC] [TIFF OMITTED] T2648.029

[GRAPHIC] [TIFF OMITTED] T2648.030

[GRAPHIC] [TIFF OMITTED] T2648.031

[GRAPHIC] [TIFF OMITTED] T2648.032

[GRAPHIC] [TIFF OMITTED] T2648.033

[GRAPHIC] [TIFF OMITTED] T2648.034

[GRAPHIC] [TIFF OMITTED] T2648.035

[GRAPHIC] [TIFF OMITTED] T2648.036

[GRAPHIC] [TIFF OMITTED] T2648.037

[GRAPHIC] [TIFF OMITTED] T2648.038

[GRAPHIC] [TIFF OMITTED] T2648.039

[GRAPHIC] [TIFF OMITTED] T2648.040

[GRAPHIC] [TIFF OMITTED] T2648.041

[GRAPHIC] [TIFF OMITTED] T2648.042

[GRAPHIC] [TIFF OMITTED] T2648.043

[GRAPHIC] [TIFF OMITTED] T2648.044

[GRAPHIC] [TIFF OMITTED] T2648.045

[GRAPHIC] [TIFF OMITTED] T2648.046

[GRAPHIC] [TIFF OMITTED] T2648.047

[GRAPHIC] [TIFF OMITTED] T2648.048

[GRAPHIC] [TIFF OMITTED] T2648.049

[GRAPHIC] [TIFF OMITTED] T2648.050

[GRAPHIC] [TIFF OMITTED] T2648.051

[GRAPHIC] [TIFF OMITTED] T2648.052

[GRAPHIC] [TIFF OMITTED] T2648.053

[GRAPHIC] [TIFF OMITTED] T2648.054

[GRAPHIC] [TIFF OMITTED] T2648.055

[GRAPHIC] [TIFF OMITTED] T2648.056

[GRAPHIC] [TIFF OMITTED] T2648.057

[GRAPHIC] [TIFF OMITTED] T2648.058

[GRAPHIC] [TIFF OMITTED] T2648.059

[GRAPHIC] [TIFF OMITTED] T2648.060

[GRAPHIC] [TIFF OMITTED] T2648.061

[GRAPHIC] [TIFF OMITTED] T2648.062

[GRAPHIC] [TIFF OMITTED] T2648.063

[GRAPHIC] [TIFF OMITTED] T2648.064

[GRAPHIC] [TIFF OMITTED] T2648.065

[GRAPHIC] [TIFF OMITTED] T2648.066

[GRAPHIC] [TIFF OMITTED] T2648.067

[GRAPHIC] [TIFF OMITTED] T2648.068

[GRAPHIC] [TIFF OMITTED] T2648.069

[GRAPHIC] [TIFF OMITTED] T2648.070

[GRAPHIC] [TIFF OMITTED] T2648.071

[GRAPHIC] [TIFF OMITTED] T2648.072

[GRAPHIC] [TIFF OMITTED] T2648.073

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             JULY 21, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T2648.074

[GRAPHIC] [TIFF OMITTED] T2648.075

[GRAPHIC] [TIFF OMITTED] T2648.076

[GRAPHIC] [TIFF OMITTED] T2648.077

[GRAPHIC] [TIFF OMITTED] T2648.078

[GRAPHIC] [TIFF OMITTED] T2648.079

[GRAPHIC] [TIFF OMITTED] T2648.080

[GRAPHIC] [TIFF OMITTED] T2648.081

[GRAPHIC] [TIFF OMITTED] T2648.082

[GRAPHIC] [TIFF OMITTED] T2648.083

[GRAPHIC] [TIFF OMITTED] T2648.084

[GRAPHIC] [TIFF OMITTED] T2648.085

[GRAPHIC] [TIFF OMITTED] T2648.086

[GRAPHIC] [TIFF OMITTED] T2648.087

[GRAPHIC] [TIFF OMITTED] T2648.088

      
=======================================================================


                         QUESTIONS AND ANSWERS

                             JULY 21, 2005



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T2648.089

[GRAPHIC] [TIFF OMITTED] T2648.090

[GRAPHIC] [TIFF OMITTED] T2648.091

[GRAPHIC] [TIFF OMITTED] T2648.092

[GRAPHIC] [TIFF OMITTED] T2648.093

[GRAPHIC] [TIFF OMITTED] T2648.094

[GRAPHIC] [TIFF OMITTED] T2648.095

[GRAPHIC] [TIFF OMITTED] T2648.096

[GRAPHIC] [TIFF OMITTED] T2648.097

[GRAPHIC] [TIFF OMITTED] T2648.098

[GRAPHIC] [TIFF OMITTED] T2648.099

[GRAPHIC] [TIFF OMITTED] T2648.100

[GRAPHIC] [TIFF OMITTED] T2648.101

[GRAPHIC] [TIFF OMITTED] T2648.102

[GRAPHIC] [TIFF OMITTED] T2648.103

[GRAPHIC] [TIFF OMITTED] T2648.104

[GRAPHIC] [TIFF OMITTED] T2648.105

[GRAPHIC] [TIFF OMITTED] T2648.106

[GRAPHIC] [TIFF OMITTED] T2648.107

[GRAPHIC] [TIFF OMITTED] T2648.108

[GRAPHIC] [TIFF OMITTED] T2648.109

[GRAPHIC] [TIFF OMITTED] T2648.110

[GRAPHIC] [TIFF OMITTED] T2648.111

[GRAPHIC] [TIFF OMITTED] T2648.112

[GRAPHIC] [TIFF OMITTED] T2648.113

[GRAPHIC] [TIFF OMITTED] T2648.114

[GRAPHIC] [TIFF OMITTED] T2648.115

[GRAPHIC] [TIFF OMITTED] T2648.116

[GRAPHIC] [TIFF OMITTED] T2648.117

[GRAPHIC] [TIFF OMITTED] T2648.118

[GRAPHIC] [TIFF OMITTED] T2648.119

[GRAPHIC] [TIFF OMITTED] T2648.120

[GRAPHIC] [TIFF OMITTED] T2648.121

[GRAPHIC] [TIFF OMITTED] T2648.122

[GRAPHIC] [TIFF OMITTED] T2648.123

[GRAPHIC] [TIFF OMITTED] T2648.124

[GRAPHIC] [TIFF OMITTED] T2648.125

[GRAPHIC] [TIFF OMITTED] T2648.126

[GRAPHIC] [TIFF OMITTED] T2648.127

                                 <all>

</pre></body></html>
